<html>
<title> - EXPLORING JOBS FOR VETERANS IN THE ENERGY SECTOR</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
            EXPLORING JOBS FOR VETERANS IN THE ENERGY SECTOR

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, MAY 20, 2014

                               __________

                           Serial No. 113-68

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                            _______________________
         
                         U.S. GOVERNMENT PUBLISHING OFFICE
88-979 PDF                       WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001        
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado                   Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD WENSTRUP, Ohio                  DINA TITUS, Nevada
                                     ANN KIRKPATRICK, Arizona
                                     

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.








                            C O N T E N T S

                              ----------                              

                         Tuesday, May 20, 2014

                                                                   Page

Exploring Jobs for Veterans in the Energy Sector.................     1

                           OPENING STATEMENTS

Bill Flores, Chairman............................................     1
Mark Takano, Ranking Member......................................     3

                               WITNESSES

Mr. Wesley Carr, President, PEC Safety...........................     3
    Prepared Statement...........................................    24
Colonel Randall Wooten (USAF Ret), President Texas State 
  Technical College (TSTC) in Marshall...........................     5
    Prepared Statement...........................................    27
Mr. Tyrone Everett, East Coast & Mid/Southwest Regional Director, 
  Center for Employment Training (CET)...........................     7
    Prepared Statement...........................................    29
Mr. Jay Hawkins, Vice President for Human Resources, Chesapeake 
  Energy Co......................................................    14
    Prepared Statement...........................................    31
Mr. Mark Szabo, Team Lead for Military Recruiting, Baker Hughes..    16
    Prepared Statement...........................................    32
Mr. John Simon, Senior Vice President, Human Resources Pacific 
  Gas & Electric Company.........................................    18
    Prepared Statement...........................................    33

                        STATEMENT FOR THE RECORD

Veterans Green Jobs..............................................    36


            EXPLORING JOBS FOR VETERANS IN THE ENERGY SECTOR

                              ----------                              


                         Tuesday, May 20, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
Room 340, Cannon House Office Building, Hon. Bill Flores 
[chairman of the subcommittee] presiding.
    Present:  Representatives Flores, Runyan, Cook, and Takano.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good afternoon. We are waiting on the ranking 
member and I'm going to ask unanimous consent to start the 
meeting early, without him, and then he can join us when he 
gets here. Hearing no objection, so ordered.
    Good afternoon. The subcommittee will come to order. Thank 
all of you for joining us here today. Before we begin with 
today's hearing I wanted to address the current allegations 
regarding patient wait times and veterans dying while awaiting 
care from the Veterans Administration.
    Like all Americans, I am deeply saddened and disturbed by 
this ever increasing scandal that is eating away at Americans' 
confidence in the VA system. The situation that first arose in 
Phoenix, Arizona seems to be expanding by the day and has even 
reached my home State of Texas. Last week I sent a letter to 
Secretary Shinseki requesting that the VA Inspector General's 
current investigation also include allegations regarding 
manufactured wait times and allegations of withheld and/or 
delayed care at the San Antonio, Austin, and Waco VA Medical 
Centers.
    If any of these allegations are found to be true I expect 
the Secretary to hold himself, his senior leadership team, and 
all those responsible accountable. I also expect the Attorney 
General to file criminal charges should they be warranted.
    Our veterans have earned the right to the highest quality 
of health care delivered in a timely manner and anything else 
is simply unacceptable to me, and to the members of this 
committee, and to all Americans.
    Now on to the topic of today's veterans in the energy 
sector. When one looks at the basic inputs that are required 
for a robust economy, you will find the following elements: 
people; financial capital; research and development; 
intellectual property; energy; a transparent, stable, and 
fairly enforced rule of law; and a regulatory structure based 
upon sound science and real world cost benefit analyses. Today 
we are going to talk about two of the most important of those 
inputs, people and energy.
    From time to time when examining the employment 
opportunities and training programs for veterans, this 
subcommittee, along with others, learns about veterans job 
opportunities that are available in some of the traditional 
economic sectors that are experiencing rapid growth. This 
afternoon we will examine how to match unemployed veterans with 
jobs in the energy sector.
    Not only is this one of the fastest growing sectors of our 
economy, it is also vital to the stability and strength of our 
economy and to our national security. Recent growth in this 
sector has put our nation on a path to be energy secure for the 
first time in decades. This energy revolution has led to a 
manufacturing renaissance generating attractive job 
opportunities for hardworking American families that have been 
hit hard by Washington's failed economic policies.
    According to the American Enterprise Institute there has 
been a 26 percent increase in new jobs in the energy sector 
since 2008. Other studies have shown that for every one job 
that is created in the energy sector, six other jobs are 
created in other segments of our economy.
    In order to ensure that veterans are not trapped in low 
paying careers it is critical to tap into the skills and 
abilities that they have already learned while they served our 
country. We want them to find well paying jobs that help both 
the economy and their families. Hardworking veterans are in 
luck that the entry level positions in the energy sector are 
not your average run of the mill lower wage jobs. In fact 
according to the Bureau of Labor Statistics the average 
starting salary for oil and gas workers is more than $34,000 a 
year, and with only a few years of experience many veterans can 
earn six figure incomes. I believe that unlike the average 
citizen veterans are in a unique position which makes them an 
ideal fit for this thriving energy sector. They are highly 
motivated, results driven, drug free, team oriented, and they 
know how to get the job done right the first time.
    As our witnesses will share with us today, and based on my 
own personal experience with three decades in the oil and gas 
industry, I know firsthand that veterans are a perfect fit for 
this industry and their career goals. I also want to make it 
clear that I am not just talking about growth potential within 
the oil and gas industry. And as someone who has always 
believed in an all of the above energy strategy, I know that 
veterans are also great candidates for jobs in all energy 
sectors, including emerging alternative energy industries.
    As we all know the creation of home grown American energy 
is not only in the best interest of our economy, but it is also 
of keen importance to ending our dependence on foreign oil. As 
I stated earlier, this is a key enabler of a robust economy.
    Today we will hear first from a panel of schools and 
training programs that are preparing veterans for careers in 
the energy sector. And on our second panel we will highlight 
some of the energy producers and companies who have shown the 
way in terms of hiring veterans for quality jobs in the energy 
sector.
    With that, I will recognize Ranking Member Mr. Takano for 
his opening remarks when he arrives.

        OPENING STATEMENT OF RANKING MEMBER, MARK TAKANO

    Mr. Flores. With that on our first panel today we have Mr. 
Wesley Carr, President of PEC Safety; Colonel Randy Wooten, 
President of the Texas State Technical College in Marshall, 
Texas, and who retired from the United States Air Force. 
Colonel, I want to thank you for your service. And last we have 
Mr. Tyrone Everett, the East Coast and Mid/Southwest Regional 
Director for the Center for Employment Training. I thank all of 
you for being here today. Mr. Carr, you are now recognized for 
five minutes. Let us start with you.

                    STATEMENT OF WESLEY CARR

    Mr. Carr. Thank you for this opportunity. I wanted to start 
with just a quick history of what we do so it would explain 
kind of where we come from.
    PEC Safety was started to standardize safety practices in 
the oil and gas industry. What was happening was contractors 
who all work for the same oil companies were having to go 
through multiple programs instead of having one that really was 
standardized to save time and money. So we have been doing that 
for several years. It has kind of become the standard for the 
industry, the Safe Gulf and Safe Land programs that a lot of 
the industry knows about.
    In 2000 we decided to start a program that would help 
people gain employment, because we kept hearing from these 
contractors saying we do not have people. We can find people 
but when we do they are not trained, that type of thing. What 
happens in the oil and gas industries, when you train people 
because of the nature of the industry, because of regulations, 
you can spend a good amount of money just getting a guy ready 
to go to work. If that guy sees a quarter more an hour down the 
road, or finds out this is not really for him, he moves on and 
so do all those training dollars that were spent. So what we 
did is we came up with some programs that we got funded through 
the WIA, the Workforce Investment Act. We did that through the 
federal government but in the states of Louisiana, Texas, 
Alabama, and Mississippi. And so since 2000 we have been 
training those people and placing them and we have got over 80 
percent success rate in placing those guys.
    A couple of years ago we decided it was time to get 
something rolling for the veterans. And you know, what is 
coming up in our industry and what is happening now is what 
they call the great crew change. You have several thousands of 
workers who are older who are now starting to retire and there 
is not a good training ground out there to bring in the next 
generation. So we decided we were going to do something about 
it, basically. And so we have a partnership. We started a 
division of our company called Battlefields to Oilfields. And 
we started a partnership with Young Memorial Technical College 
in South Louisiana. And we put together some programs to help 
these guys get jobs.
    And so the way we basically do it is we already know that 
these veterans have skills that transfer great to the oil and 
gas industry. They have got the work ethic, they show up on 
time. Those two things right there will move you up a career 
ladder in the oil and gas industry, just those two things. The 
trick, though, is getting your foot in the door. And so the way 
we have done it, and we have done with, in fact in 2013 we had 
a 95 percent placement with our veterans. We do that by 
offering training to them that is valuable, so valuable that it 
is hard to turn them down is basically our M.O. with that.
    So we have partnered with that program down there in South 
Louisiana. And we have the ability to place literally as many 
of these people, as many veterans that want jobs in the oil and 
gas industry, we have the ability and the contacts to make that 
happen. Right now you know, we are limited by the, basically 
the rules, with the proprietary schools and that type of thing. 
So we are limited on our location. But we are working 
partnerships right now in Texas, North Dakota, with different 
technical colleges to be able to open up facilities and where 
we can, or use existing facilities, to be able to fund these 
types of programs across the nation.
    The jobs are numerous. The amount of money that they can 
make, it is a good bit of money. They make good salaries. We 
had probably an average of about $40,000 to $60,000 with the 
ones that we placed, and that is based on a six-month working 
year. So in other words, if they are working in shifts, as you 
all know how it works, that is not counting any overtime. When 
they get to the overtime is where the money really starts 
piling in.
    The good news too about all of this is, you know, we are 
not really putting them in jobs. We are putting them in 
something that will turn into a career if they put forth the 
effort. You know, certifications do not equal jobs but 
successful interviews do. And from there you could turn that 
job into a career by staying on track.
    Right now we have, the VA is, just did an audit on our 
program, it is actually Young Memorial's program has been 
audited. And there are a few findings. They have suspended it 
until they get the report back to us and what we would like to 
do is be able to, we are going to make this happen one way or 
the other, if it is with everyone's cooperation or not. We are 
dedicated to getting the veterans jobs. We have the companies 
that want them. And we are going to make that connection one 
way or the other. But we would like to be able to do it with 
the VA's assistance and with other various programs that are 
out there that we are researching currently.
    So I do not know how this time is going. It seemed to start 
over. But I hit it already?
    Mr. Flores. You are about 30 seconds over. We can give you 
about 30 seconds to wrap up and we will go to Colonel Wooten.
    Mr. Carr. Okay, sure. So in a nutshell we have already 
started reaching out. We have partnerships that we are 
developing across the country. We have about 15,000 companies 
that we deal with but on this level with the B2O program, our 
Battlefields to Oilfields, we are partnering in Texas pretty 
soon, North Dakota, California, and a few other hot spots. 
Basically hitting the Bakken shale, the different shale and 
plays that are out there. Because the jobs are out there. We 
are there to help make that connection.

    [The prepared statement of Wesley Carr appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Carr. We appreciate what you are 
doing. Colonel Wooten, you are recognized for five minutes. By 
the way, the way the lights work, if the light is green you are 
within the five-minute time window. If it is yellow, you have 
got a minute left. If it is red, we need to wrap up. Thank you.

              STATEMENT OF COLONEL RANDALL WOOTEN

    Colonel Wooten. Thank you, Mr. Chairman. Like my colleague 
here, I am going to give a couple minutes of overview of what 
TSTC is, and then I will launch right into it. TSTC was 
established in 1965 as the James Connally Technical Institute, 
part of Texas A&M University. It was located in Central Texas 
at the former James Connally Air Force Base in Waco. JCTS 
separated from A&M University in 1969 and became an independent 
state system, with its own nine-member board and the name of 
Texas State Technical Institute. In 1991 the Texas Legislature 
elevated the status of TSTI's campuses by designating them a 
Texas State Technical College. Since its inception, TSTC has 
grown to include four colleges and several off-site teaching 
locations.
    TSTC is Texas' only state supported technical college. The 
system currently has four main campuses: Waco, Harlingen, 
Marshall, and West Texas. The West Texas location has 
geographically dispersed locations in Abilene, Breckenridge, 
Brownwood, and Sweetwater.
    TSTC Colleges consistently ranked in the top producers of 
associate degrees in engineering, precision production, 
computer information systems, computer and information 
sciences. The Community College Weekly annual report titled Top 
100 Associate Degree Producers, TSTC consistently ranks number 
one in Texas.
    TSTC offers more than 150 associate and applied science 
degrees and certificates and has produced nearly 100,000 
graduates in its 49-year history. TSTC Harlingen also offers 
seven associate of science degrees in biology, computer 
science, engineering, mathematics, physics, nursing, and health 
care professions.
    The TSTC student is a diverse group. There are 66 percent 
minorities, 57 percent Hispanic, nine percent Black, less than 
one percent other minorities within that 66 percent. The rest, 
34 percent, are White. The student body is comprised of 40 
percent females and 60 percent males and they come from 200 of 
Texas' 254 counties. And nearly 63 percent are economically 
disadvantaged.
    And now for the veterans part. TSTC is proud to have many 
veterans and the armed services among its graduates. Of those, 
many have earned certificates or degrees in instructional 
programs that support careers in the energy sector. Two of 
these are, one Sarah Kimball, graduated from TSTC West Texas 
this year with a degree in computer aided drafting and design 
technology. She had previously served in the U.S. Air Force and 
has a bachelors degree in criminal justice. Before graduating 
Sarah was hired by the Nicholas Consulting Group, a 
multidisciplinary engineering design firm in Midland, Texas 
with an above average starting salary. The second example is an 
eight-year military veteran Christopher Bowdoin, who graduated 
from TSTC Marshall also this year as a process operations 
technician, a training which is attractive to a variety of 
process industries, including chemical, food and beverage, oil 
exploration, pharmaceutical, power generation, pulp and paper 
refining, and wastewater treatment. Christopher transferred to 
TSTC from another college and upon completion of his degree was 
hired as a field specialist for Chevron, a worldwide energy 
company.
    Veteran enrollment in the current academic year has 
surpassed 1,000 across all TSTC campuses. Approximately 30 
percent of these students are enrolled in instructional 
programs that support careers in the energy sector. All TSTC 
campuses are designated military friendly schools, which are 
those in the top 20 percent nationally and deliver the best 
experience for our students. Additionally, all TSTC campuses 
are participants in the Texas College Credit for Heroes 
Initiative. This initiative is a partnership between the Texas 
Workforce Commission and the Texas Higher Education 
Coordinating Board.
    The strength of TSTC's institutional programs rests in the 
strong relationships each campus has with business and 
industry. Each instructional program is supported by an 
advisory council with members from the industry served by the 
program.
    According to statistics from the Office of Governor Perry, 
the industry sector contributes more than $172 billion to the 
Texas economy and that number is growing every year. The growth 
is fueled in part by the use of new technologies, such as 
hydraulic fracking and horizontal drilling. Nearly 900,000 
Texans are employed in the energy sector today.
    TSTC offers numerous instructional programs which are in 
high demand in the oil, gas, and wind industries and are 
booming in Texas. Although many of these programs support 
multiple industry sectors they are also vital to the energy 
sector. There are 21 of these programs that provide that 
support.
    Many TSTC students in these programs are veterans and the 
technical skills they master at TSTC compliment their military 
training resulting in a very high placement rate for these 
graduates. We have also developed specialized programs to allow 
veterans to accelerate their completion time by demonstrating 
the skills they mastered while in the service. One of those 
programs is the new competency based educational initiative 
designed to shorten the time necessary to earn an award. This 
competency based model does not sacrifice the quality of the 
skills learned. We began offering this competency based 
approach in the fall in two of our locations.
    In conclusion, without exception the colleges within the 
TSTC system are committed to serving U.S. military veterans. 
TSTC is also committed to finding innovative educational 
pathways for the efficient and cost effective transition of 
these veterans into the workplace. Texas has long been a leader 
in the energy sector. However, recent growth in that sector has 
been exponential. That means veterans will continue to have 
access to a wide array of jobs. Our partnership with industry 
through advisory councils as well as collaborative efforts with 
industry to design specialized curriculum ensure that students 
graduate with job ready skills that match or exceed industry 
standards. Therefore when industry wants qualified workers, it 
comes to TSTC.

    [The prepared statement of Colonel Randall Wooten appears 
in the Appendix]

    Mr. Flores. Thank you, Colonel Wooten. Mr. Everett, you are 
recognized I guess for up to six and a half minutes.

                  STATEMENT OF TYRONE EVERETT

    Mr. Everett. Thank you, Chairman Flores, and other 
committee members, for this opportunity. My name is Tyrone 
Everett and I am the Regional Director for the Center for 
Employment Training. I recognize my title is quite a handful 
because I cover the Midwest, Southwest, and the East Coast 
operations with one of our training opportunities being in El 
Paso, Texas.
    CET is a 501(c)(3) nonprofit organization that has been 
providing job training, human development, and job placement 
for over 47 years to hard to serve trainees. In the past 47 
years we have placed over 135,000 men and women, including 
veterans, in marketable living wage careers. The primary 
purpose of our organization is to train people for full time 
jobs and get them into the workforce. Our experience, over 47 
years is that most people would prefer to be independent and 
have control of their lives.
    CET is training more and more job seekers in green industry 
sector skills. Our decision about what we train in is driven by 
our partnership with the industry. All of our skills are driven 
by what is called a Technical Advisory Committee comprised of 
industry experts that come and advise us what is going on in 
the green sector both locally and on the regional levels; 
because we find that many of our veterans work and play across 
county lines. This way we are able to remain flexible to move 
in and out of skills as we saturate the market. We will not 
train in a skill wherein the industry has been saturated. We 
will move out of that skill by training the final class, and 
then move into a new skill--we are looking more and more at the 
energy sector. In fact, our technical advisory committee 
members are saying we are going to see greater diversity in the 
green sector field, not only just heating and cooling but also 
in the medical fields as well.
    Currently we serve about seven percent veterans of all of 
our trainees, and increasingly we are seeing more and more of 
them come through our doors--we embrace that opportunity. We 
hope we get to see more veterans. All 15 of our centers (in 
five different states) are approved by the VA to serve 
veterans. What we have found is that in some ways the veteran 
is very easy to train because they come motivated, and they 
usually have higher education levels. But they can also be the 
most challenging because (frequently) veterans that have served 
in combat, (particularly who have just come out of combat) come 
with some special needs. And as a result, makes veterans 
challenging to train. I'll get back to that a little bit later.
    I would like to say that providing quality training in new 
and growing demand green skills is enough to successfully train 
and transition veterans from military service to civilian work. 
Yet, more is required to equip veterans with the skills and 
tools to obtain and maintain their meaningful employment. The 
other component necessary for success is applied resources. 
Specifically, immediate intensive supportive services while 
they are in training that will address the pressures that 
readjustment to civilian life can show for our recently 
released combat veterans. At CET we take this head on because 
we use a comprehensive training model that addresses barriers 
to training while the individual is in training.
    Our approach in green technology training uses a hands on 
contextual model that provides skills training in a simulated 
workplace and environment. All of our instructors are hired 
from the industry. Students clock in and clock out just like 
they might if they were at work. And, from the very beginning 
they put their hands on the machines and tools that allow them 
to learn.
    But, the most important key to our training is the 
certification. Without proper certification we find that our 
veterans and our trainees do not get the jobs. So all of our 
training and certifications are industry specific.
    In closing, I want to get back to what I stated previously 
about the importance of applied immediate resources. Boots on 
the ground, what we are seeing and what we are witnessing is 
that our veterans need to get to their benefits quicker. We are 
seeing it is sometimes taking too long for them to access those 
benefits that take down the barriers to training and 
subsequently into employment. To this end we have only one 
recommendation to the VA. That is services and benefits are 
accessed within the first 90 days of discharge is very key if 
requested. It is crucial they are able to get their 
transitional resources, (particularly their mental health 
resources and their housing vouchers) so that they have those 
barriers out of the way and can focus on training.
    And so I would like to state in closing we must all give 
them the efforts and have the same sense of commitment and 
dedication they have shown in the service of their country. We 
all know that they have earned it. Thank you very much.

    [The prepared statement of Tyrone Everett appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Everett, for your testimony. I 
now recognize the ranking member for five minutes for his 
opening statements.
    Mr. Takano. Thank you, Mr. Chairman. I want to begin by 
thanking Chairman Miller of the full committee and Ranking 
Member Michaud of the full committee for their bipartisan 
efforts in seeking to address allegations made regarding the 
Department of Veterans Affairs wait lists. I know we all look 
forward to the forthcoming report by the Inspector General. Our 
veterans deserve the best and we will continue to work hard for 
them and their families. And today we seek to look at another 
issue affecting veterans, and that is employment.
    Mr. Chairman, thank you for calling this hearing on 
veterans employment and training programs in the energy sector. 
I was pleased to hear some of the testimony so far about how 
veterans can use their military experience to find meaningful 
work in the energy sector.
    Traditionally veterans have had some difficulty in 
translating their military skill set into the civilian work 
force. The witnesses here today have all dedicated themselves 
to helping bridge that gap to training and employing veterans 
who bring tangible skills to the table. I am looking forward to 
hearing our panelists speak on how they have successfully 
matched veterans with job opportunities. I'm also looking 
forward to hearing about what kinds of job opportunities are 
available for veterans. The energy industry continues to grow 
at an exponential rate in both traditional and renewable 
energy. I understand that the range of available jobs will give 
my fellow members and I a better perspective on the impact the 
industry can have for all of our veterans who are seeking 
employment.
    I would like to express my gratitude to all of these 
organizations, to all the organizations that are present today. 
Thank you, Mr. Chairman, for scheduling this hearing today, and 
I yield back.
    Mr. Flores. I thank the ranking member and I would now 
recognize myself for five minutes for questions. The first 
question starts out with a statement. I really like your 
approach to working with employers to ensure that the training 
you provide is up to date and marketable for the future success 
of veterans. And my question for each of you is this to start 
with. How often do each of you meet with employers to find out 
how to keep your curriculum up to date and on the leading edge? 
Let us start with Mr. Carr.
    Mr. Carr. Okay. We actually have a few committees that do 
this, that is made up of the oil companies and the contractors. 
We have a group called the Operator Development Team and also a 
Contractor Development Team. And we also have industry 
regulatory experts on staff and that we reach out to. And so we 
just make sure, we know we keep our ear to the ground. We know 
what the new regulations, like the new silica change that came 
out recently, those types of things. So we also know, we pay 
attention to region. So in the Midwest, or in the Northeast, 
you know, middle region, you are not going to need water 
survival, that type of thing unless they, some of those workers 
do transfer around. But that is how we do it. We are part of 
the curriculum committees for those groups and so we are 
getting it firsthand from the actual companies with regulatory 
bodies on board.
    Mr. Flores. Okay. Thank you. Colonel Wooten.
    Colonel Wooten. Yes, sir. We primarily do it through our 
programs. For instance, the welding program or the diesel 
program of the industrial maintenance program, each of those 
would have committees or advisory committees and we meet with 
them at least twice a year. We also then meet with associations 
like the Gulf Coast Energy Association that is made up of a lot 
of different components. And so we meet with those folks about 
twice a year also. And they always send representatives up and 
sometimes we go down to their location to meet with them. So it 
is an ongoing process in actuality.
    Mr. Flores. Okay. Mr. Everett.
    Mr. Everett. Thank you. We have what is called a Technical 
Advisory Committee that is comprised of the industry that they 
represent. Also, all of our instructors are people that we hire 
from the industry that are specific to a skill, for example 
heating, ventilation, and air conditioning. We will hire an 
HVAC man or woman to do the actual training. We keep current by 
looking at what is going on in the industry. The Technical 
Advisory Committee meets once a quarter, so that is about four 
times a year that they meet. They come in and they look at the 
equipment and tools, the software that we are using, and they 
for the most part give us their approval, or say, no we are not 
looking at, we do not see that widget out here anymore, you 
have got to change that. So we try to stay on the cutting edge 
of the technology and resources needed to complete a particular 
skill.
    Mr. Flores. Okay. Mr. Carr, I do not think you said, 
Colonel Wooten said they met two times a year, Mr. Everett said 
they met four times per year, how many times per year does your 
organization meet with employers?
    Mr. Carr. Well we have committee meetings that probably 
happen about once a quarter.
    Mr. Flores. Okay.
    Mr. Carr. And then committee, the subcommittees for 
training curriculum meet probably once every two months or so.
    Mr. Flores. Okay. Mr. Everett, you had mentioned that our 
veterans often have problems accessing their benefits. And I am 
not sure I caught all of what you said. I think you said mental 
benefit, transportation benefits----
    Mr. Everett. Yes.
    Mr. Flores [continuing]. And housing. But are you talking 
about G.I. Bill benefits, or broader than G.I. Bill benefits?
    Mr. Everett. I am talking about G.I. Bill benefits. They 
often go back to their representatives locally to try to access 
those benefits and sometimes the wait is rather extensive. And 
what we try to do at CET, because we are a holistic approach, 
we try to wrap around as many local services around them as we 
can to keep them in training because we know that is where they 
want to be. But sometimes it promotes a challenge because local 
resources are sometimes limited. So we try to do our best to 
keep them in and propped up into training.
    Mr. Flores. Okay. I appreciate your feedback on that. We 
are working also with the VA to try to create a better more 
holistic way to get the benefits to the veterans in a quicker 
manner. And so we still have this tug of war to get that done.
    Mr. Everett. Thank you.
    Mr. Flores. Let us go to Mr. Carr. Can you tell me about 
your placement rate? I mean, how many of the folks that come 
through your B2O program are actually getting jobs and what has 
been the feedback of the veterans that have been placed in 
those jobs?
    Mr. Carr. Sure. In 2013, which is when we started this 
program, we have been doing these types of programs since 2000. 
But in 2013 we placed 95 percent. And so far this year we are 
around 80 percent. But we are still, some of those people just 
graduated, so.
    Mr. Flores. Mr. Everett, what is your placement rate?
    Mr. Everett. Across the board we are right between 70 and 
75 percent placement rate across the board. And we have found, 
and you have one of our testimonials in my packet, our veterans 
tend to be around the 90 percent----
    Mr. Flores. Great.
    Mr. Everett [continuing]. That we can keep them in 
training. And they usually will make anywhere from $2 to $3 
more an hour than our other trainees once they graduate.
    Mr. Flores. I thank you all. I am going to recognize the 
ranking member for five minutes for his questions. Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Carr, thank you 
for being here today. Can you tell me, are the credits that are 
earned by a student enrolled in a PEC program transferrable?
    Mr. Carr. Yes.
    Mr. Takano. And are they transferrable to both regionally 
accredited institutions as well as nationally accredited 
institutions?
    Mr. Carr. Well the credits that they earn through our 
programs are, first of all they are industry recognized and 
they are regulatory, you know, they meet all regulatory 
requirements. So a group like OSHA will not say, hey, you know, 
so you are certified, but they will make sure that you meet 
those requirements. So where they are transferrable is from 
company to company across the industry. You will see if, you 
know, ABC Company hires someone, and that veteran has all that 
training, and they decide that they want to go to XYZ, that 
training will transfer over. But it is not, these are not 
college credits----
    Mr. Takano. It is an industry certification?
    Mr. Carr. Yes, sir.
    Mr. Takano. Okay. Can you tell me the five items that the 
VA has asked PEC to address----
    Mr. Carr. Yes, sir.
    Mr. Takano [continuing]. For their South Central Louisiana 
Technical College Program?
    Mr. Carr. Absolutely. And just so, to be clear, the 
approval from the VA is through, we are contracted by South 
Central Louisiana Technical College. But the findings were that 
they were, let us see, the 85-15 rule about the public versus 
the, and so with that ruling we actually have had, they put 
thousands and thousands of people through these programs, and 
we have too put over 500,000. But the way we package the VA 
program, that combination of courses has not had the 85-15. So 
we should be able to clear that up. They actually, one of them 
was that they put our corporate office location and said that 
it was not approved for a proprietary license. But we do not do 
any training there so that should be simple to clear up. They 
said that only one person, I believe, qualified through Chapter 
31 and the rest were all G.I. Bill, Post 9/11. One was that we 
are not, like I said earlier, we are not a proprietary school 
so we were not approved through the VA. So we were using, we 
were contracted by the one that has the school, the South 
Louisiana Technical College. And the other is, and I believe we 
talked to them about this ahead of time. But the food and 
lodging is part of what they do. Because when they come it is 
not like a semester where they go to college. They come to our 
class for basically right now a month straight. And so they are 
living in, we have created an offshore environment to make sure 
they know what they are getting into. So they are living on 
site. They are eating there. They are training in that 
environment. They are living in the bunks just like they would 
in an offshore facility. So those were the five things.
    Mr. Takano. Okay. Can you tell me how you propose to carve 
out an exception for the in state two-year requirements for 
PEC?
    Mr. Carr. Yes, sir. We actually, well, the only way I would 
note, are you talking about how we think we could solve that 
problem?
    Mr. Takano. Yes.
    Mr. Carr. We actually are working on that right now. I do 
not know how you get an exemption or anything like that from 
it. This is just kind of new for us. We just want to give 
veterans jobs, right? So we can partner with different schools 
that have that, have had that proprietary license. But at the 
same time these programs that we are teaching the veterans, it 
is really nothing new. It is things that we have been doing for 
years and years along with the school. We just have not had it 
packaged in this exact way and I think that is what is drawing 
the red flag on it.
    Mr. Takano. Okay. Thank you. Colonel Wooten, do you see a 
significant amount of your students who want to continue their 
education and receive a formal four-year degree, economic 
degree? Are a significant number of your students wanting to go 
on to complete a four-year degree?
    Colonel Wooten. That is possible.
    Mr. Takano. Are the credits transferrable, the credits 
earned by TSTC transferrable to other institutions?
    Colonel Wooten. Yes, sir. We have an AAS degree which is a 
standalone, typically viewed as a terminal degree because it 
may be in process operations. We also have matriculation 
agreements with 12 other colleges and universities in Texas 
where they can take those with them just like any other two-
year school and get a bachelors in applied science.
    Mr. Takano. And are these typically regionally accredited 
schools?
    Colonel Wooten. Yes, sir. All of our schools are regionally 
accredited.
    Mr. Takano. That is wonderful to hear. Mr. Everett, can you 
tell me about the credit transfer? How are your centers 
accredited? Can you just tell me that real quick?
    Mr. Everett. Yes. We are accredited through the Council on 
Occupational Education out of Atlanta, Georgia, and all of our 
centers are also locally accredited by the states. Our credits 
are transferrable to the local community colleges.
    Mr. Takano. Well, that is good.
    Mr. Everett. Yes, we are a post-secondary school. In fact 
one of our categories of excellence is that we try to encourage 
them to continue, along with working, but to continue their 
education so that they can turn their training into a career 
track.
    Mr. Takano. Thank you, Mr. Chairman. My time is up.
    Mr. Flores. Thank you, Mr. Takano. Mr. Cook, you are 
recognized for five minutes.
    Mr. Cook. Thank you, Mr. Chair. Thank you for testifying. 
And first of all, I am going to ask you a question. You have a 
lot of experience in this area. I am an employer and I go to 
you and I am going to say what are the three best things that 
veterans bring to the table when I am looking at them for 
hiring? Anybody, real quick answers?
    Colonel Wooten. Work ethic, discipline, and dependability.
    Mr. Cook. Everyone else agree with that?
    Mr. Everett. Absolutely.
    Mr. Cook. Okay. And I kind of figured that one. That one I 
had figured out. But there is a number of veterans that never 
make it through the process. Why do you think they wash out? 
What are the three things that, you know, if somebody is 
looking at them, you know, everybody is patriotic, everything, 
there has got to be something there. And what do you find? Is 
there a common denominator that comes across, either a stigma 
that is associated with veterans, or what have you? I know this 
is a, you know, theoretical question. But there has got to be a 
reason why sometimes they cannot put it down on paper, or what 
have you. But there has got to be a reason why they do not get 
it. Anyone? Yes, sir.
    Colonel Wooten. Stress. Stress they carry back from combat. 
Some of the wounds that they have, you do not see them. Some of 
the wounds are not diagnosed. One of the ways we get around 
that, or accommodate that would be a better term, is that we 
have associations of veterans on our campus and we find that 
when they are amongst their buddies and can share their stories 
and have people that they believe understand them better than 
an 18- or a 19-year-old student would, they are more 
successful. And so we spend a lot of our time in what I call 
the care and feeding of our vets to make sure they feel like 
they belong, they have someone to talk to, and they have 
someone they can depend on.
    Mr. Cook. Thank you. Yes, sir.
    Mr. Everett. Yes. Our three top barriers that we see is 
transportation, housing, and mental health. Because we provide 
wrap around services sometimes our veterans, men and women, end 
up at the Department of Social Services and that hurts their 
pride. They do not feel like they want to come and serve their 
country and then end up on welfare. That is not what they want. 
They feel like they are entitled to services as a result of 
being a vet and that is where they prefer to get their 
resources. So we try to work very closely with our local VA to 
impress upon them that these young ladies and gentlemen, they 
are not just trying to rob the system. They need these 
services. And if you can help them, if you could do this in an 
expeditious manner. Because that is the way they want to go. 
They want control of their lives.
    Mr. Cook. Thank you. Yes, sir.
    Mr. Carr. Yes. I want to add too that part of, because 
there sometimes is not that training in between their services 
and the job placement, that there is uncertainty from the 
veteran's side, where he does not, he or she may not know what 
they are getting into. But there is also a little bit of 
concern from the employer. When they go through the proper 
training, then they feel like, well, you know what? This person 
knows what they are getting into and they have at least 
achieved this as far as the oil and gas side of things. So 
there is a comfort level there, too.
    Mr. Cook. Let me ask you based upon your answer there, and 
I think this is something that has happened in the last few 
years. That I do think there is a stigma because of Post 
Traumatic Stress Disorder and everything else that half the 
veterans that come out of there are basket cases. And I think 
the VA, I think we, I think everyone in American society has 
encouraged that. Yes, the military is stressful. Combat is 
stressful. But you have got to suck it up, do your job, and get 
it done. And instead we are conveying this attitude that 
everyone comes out and they cannot handle them. I am sorry. 
They had to handle them. And I think that negative approach has 
almost put a cloud over veterans in general, or oh yes, here 
somebody that has got a problem, they are going to use drugs. 
Or we have concentrated so much on the problems that we have 
forgotten the hundreds of thousands of people that came out 
that were successful. And I think sometimes we do it in here, 
we are always looking at the negative instead of all these 
positive things which has skewed maybe some of our outlook. So 
that was a statement, but I want to thank you very much for 
testifying. I am almost done. Thank you.
    Mr. Flores. Colonel Cook, I thank you for your questions. I 
thank the first panel for their testimony. We appreciate what 
you are doing for our nation's veterans and we ask you to to 
keep up the good work. And keep the subcommittee informed as to 
your successes and your challenges. Mr. Everett, I appreciate 
you talking about some of the issues that our veterans face 
with respect to G.I. Bill benefits so keep us posted as you see 
things change, moving forward.
    With that, this panel is excused and we are going to invite 
the second panel to come to the witness table. On our second 
panel we have Mr. Jay Hawkins, who is the Vice President for 
Human Resources for Chesapeake Energy; Mr. Mark Szabo, Team 
Lead for Military Recruiting at Baker Hughes, and who also 
served in the U.S. Army Reserve Military Police Corps. We thank 
you for your service. And finally we have Mr. John Simon, 
Senior Vice President for Human Resources at Pacific Gas and 
Electric Company, here on behalf of the Center for Energy 
Workforce Development. I thank each of you for joining us 
today. Mr. Hawkins, you are now recognized for five minutes for 
your testimony.

                  STATEMENT OF MR. JAY HAWKINS

    Mr. Hawkins. Chairman Flores and members of the 
subcommittee, thank you for the opportunity today to discuss 
Chesapeake Energy Corporation's veterans hiring program which 
has become a remarkable success story for our company. I am Jay 
Hawkins, Vice President of Human Resources for Chesapeake.
    Chesapeake is based in Oklahoma City and is the nation's 
second largest producer of natural gas and the 11th largest 
producer of oil and natural gas liquids. We are proud to have 
helped lead the way in what has become known as the oil and gas 
shale revolution. This domestic supply revolution has taken 
place across the U.S. creating jobs, generating significant 
economic activity, and changing our nation's energy future. 
This includes reducing our dependence on foreign oil and 
helping offer energy solutions for some of our allies around 
the world.
    I am here today because as a part of our success in recent 
years our company is also a top employer of veterans as well as 
members of the Reserve and Guard. I am honored to say that 
these employees represent about 11 percent of our total 
employee base. This is especially significant as this hiring 
has occurred during a recessionary period when many tens of 
thousands of veterans were returning home seeking employment. 
Of note the average annual salary of these veterans at 
Chesapeake is $61,500.
    Our efforts to recruit military servicemen and servicewomen 
began in 2008. But what originally started as a small component 
of our recruiting efforts quickly grew into a organic success. 
Our targeted recruiting outreach has resulted in the current 
employment of about 1,200 veterans or members of the Guard and 
Reserve in positions ranging from rig hands to engineers. In 
fact of the nearly 3,000 employees hired by Chesapeake in 2013 
about 200 were members of the Guard and Reserve and 230 were 
veterans.
    Initially Chesapeake recruited only junior military 
officers, lieutenants and captains retiring from the service in 
specialized positions. But we quickly expanded our efforts to 
include hiring former enlisted personnel to work in the field 
realizing these men and women could be a natural fit. For 
instance, many maintenance and electronic technicians were 
trained in the military and we were able to naturally 
transition their experience to the oil and gas industry.
    Our specific recruitment efforts include participation in 
veteran recruiting fairs. Chesapeake attended about 50 in 2013. 
And a veterans only email address where military candidates can 
contact our recruiters directly. In total, 15 percent of our 
2013 recruiting budget was dedicated to recruiting veterans. 
The result of the continued success of our program is that 
today we plan to add military veterans in locations across the 
country, including Ohio, Oklahoma, Texas, Pennsylvania, and 
Louisiana, in positions like field engineers, environmental 
health and safety representatives, pumpers, equipment 
operators, business analysts, and rig hands.
    Once hired, Chesapeake works hard to help our veteran 
employees during their transition. In 2011 we created CHK Troop 
Connect, an online community where employees with military 
affiliation and their families can connect and support each 
other as they transition to civilian life and begin new 
careers. CHK Troop Connect offers Guard, Reserve, and veteran 
employees, and employees with military family members, 
opportunities to connect with each other, plan activities, and 
share stories. This group hosts networking events, community 
service projects, welcome home and farewell gatherings, and 
other military focused activities. We understand this support 
and continued transition assistance is vital.
    Moreover, just this month we were pleased to announce a new 
military differential pay benefit for all full time Chesapeake 
employees who have completed at least one year of employment 
and are called to active duty or military training for 30 or 
more days. Under this benefit our company will pay the 
difference between an eligible employee's Chesapeake salary and 
his or her military pay as a lump sum amount upon return to 
work.
    While we know that veterans have an unmatched work ethic, 
commitment to teamwork and leadership skills, we now directly 
benefit from these skills and contributions on a daily basis. 
Our CEO said to our employees on Veterans Day 2013 when senior 
management and supervisors also presented each servicemember 
with a commemorative coin in individual ceremonies, and I 
quote, ``these individuals provide strength, stability, and 
commitment to our company in addition to the diverse skills and 
expertise that are essential to our success.''
    Mr. Chairman, you have certainly seen the economic and job 
creation results firsthand in your home state of Texas. And as 
a number of the members of this subcommittee have seen in your 
own states the timing of the growth of our industry has made 
this particularly great news. Unlike most industries the oil 
and gas industry has experienced growth during a recessionary 
period and the outlook for jobs only looks brighter in the 
future.
    In summary, our veterans hiring efforts have truly proven 
to be a win-win for our company and for the many men and women 
of our armed services who now have found exciting and rewarding 
careers with Chesapeake. We are proud that this program 
provides a solution for our needs as well as our returning 
veteran employment needs, all while continuing to advance what 
has become one of the nation's greatest stories, the oil and 
gas shale revolution.
    Mr. Chairman, thank you for the opportunity to be with you 
here today. I look forward to any questions.

    [The prepared statement of Jay Hawkins appears in the 
Appendix]

    Mr. Flores. Mr. Hawkins, thank you for your testimony. Mr. 
Szabo. Did I say that correct?
    Mr. Szabo. Yes, sir.
    Mr. Flores. Thank you. You are recognized for five minutes.

                  STATEMENT OF MR. MARK SZABO

    Mr. Szabo. Thank you. Mr. Chairman, Ranking Member Takano, 
members of the subcommittee, good afternoon. I am Mark Szabo, 
Team Lead for the Military Recruiting Program at Baker Hughes, 
Inc. As someone who spent 16 years in service with the U.S. 
Army Reserve I feel extraordinarily privileged to have made a 
career out of attracting our veterans to the energy sector. I 
thank you for the great honor of appearing before you today.
    Baker Hughes is a leading supplier of oil field services, 
products, systems, and technology to the worldwide oil, natural 
gas, and geothermal industries. While we work in nearly 80 
countries approximately half of more than our 58,000 employees 
are based here in the United States where we conduct the 
majority of our manufacturing, field services, and research and 
development. It is here in the United States that advanced 
exploration and producing technologies have perhaps had the 
most dramatic effect on increasing oil and natural gas 
supplies.
    This growth brings tremendous job opportunities at a time 
when a large number of servicemen and women are leaving the 
military. My mission and that of the entire Baker Hughes 
military recruiting team is to bring the immense talents and 
work ethic of our men and women in uniform to bear on energy 
production. This makes good business sense to us. But in the 
words of our CEO Martin Craighead, Welcoming our veterans home 
to meaningful, well paid jobs is simply ``the right thing to 
do.''
    Baker Hughes has long sought veterans for our field work, 
where the value of their experience is easily apparent. 
Mechanical assembly, field operations, machining, repair and 
maintenance, and logical coordination all fit within this 
category. However, we seek out veteran applicants at all levels 
of the company, including in corporate and enterprise positions 
because we believe that military service fosters core values 
that align very well with Baker Hughes' core values of 
integrity, teamwork, performance excellence, learning, and 
courage. Almost all the members of my team are veterans 
themselves and we bring that experience to bear on our approach 
to recruiting. We have developed a multi-pronged approach to 
ensure that we are reaching veterans at any stage of the 
transition to the private sector. We reach out to current 
servicemen and women at military installations throughout the 
U.S. and to veterans by participating in military specific job 
fairs. We also partner with several universities with high 
veteran populations, as well as state veteran workforce 
commissions. We encourage veterans who are already members of 
the Baker Hughes community to refer their former colleagues.
    In 2013 we conducted a total of 60 military recruiting 
events, with that face to face contact translating directly 
into 175 hires, with many more hires coming through traffic 
driven to our recruiting website. Our intention is to more than 
double that number in 2014. I am pleased to report that so far 
we are on that pace. We held 23 military recruiting events in 
the first quarter of 2014, hiring an additional 145 veterans. 
We are essentially hiring a veteran a day.
    We believe it is important to continue that engagement 
beyond the hiring process to maintain it as a consistent thread 
in our employees' experience. To that end we have established a 
veterans resource group to support veterans transitioning to 
Baker Hughes from active duty and to connect them to each other 
and with mentors within the company, creating a vibrant network 
for continuing professional and personal development. This 
program has been enormously popular since its launch in 2013. 
Seventeen local chapters have already been established in 
Texas, Louisiana, Oklahoma, Pennsylvania, and many more are 
underway in places like California, Colorado, and North Dakota. 
It will come as no surprise to the subcommittee that these 
chapters once formed turn their focus almost instantly to 
making a difference in the lives of other veterans.
    Baker Hughes also believes strongly in supporting those 
employees who continue to serve our country in the military 
Reserves. We have policies in place to ensure our National 
Guard and Reserve employees are aware of and receive their 
benefits. As our employees are called up, Baker Hughes pays the 
difference between their base salary with us and their military 
base pay from 30 days annually for training, up to 180 days for 
an involuntary call to active duty.
    Baker Hughes was recently recognized with an ESGR Pro 
Patriot Award in New Mexico and I am proud to say that the 
company is a finalist for the 2014 Secretary of Defense 
Employer Support Freedom Award. Like our Veterans Resource 
Group, this is a great program made great through the 
dedication and spirit of our employees.
    We applaud the subcommittee for shining a light on the 
opportunities available to veterans in the energy industry and 
we are pleased to do our part. I look forward to the 
discussion. Thank you.

    [The prepared statement of Mark Szabo appears in the 
Appendix]

    Mr. Flores. Mr. Szabo, thank you for your testimony. Mr. 
Simon, you are recognized for five minutes.

                  STATEMENT OF MR. JOHN SIMON

    Mr. Simon. Mr. Chairman, members of the subcommittee, good 
afternoon. My name is John Simon. I oversee human resources for 
Pacific Gas and Electric Company, or PG&E. Today I am 
representing both PG&E and the Center for Energy Workforce 
Development, CEWD.
    PG&E is one of the largest combined natural gas and 
electric utilities in the country. We serve about 15 million 
people in Northern and Central California. My job is to provide 
the talent we need to deliver energy safely, reliably, and 
affordably to our customers. At PG&E we work closely with CEWD, 
a nonprofit group of utilities and trade associations, that 
together partner with labor to address the pending workforce 
shortages facing our industry.
    Four years ago CEWD and the Edison Electric Institute 
launched the Troops to Energy Jobs Program. The program was 
piloted by six utilities across the U.S., including PG&E. Its 
purpose is to connect veterans to utility jobs.
    CEWD projects that as many as 200,000 electric and gas 
utility workers are eligible to retire in the next five years. 
That is about 40 percent of the utility workforce. Worth 
repeating, 40 percent of the utility workforce. Beyond these 
retirements thousands more workers will be needed, engineers, 
technicians, line workers, plant and system operators, 
mechanics, welders, cyber experts. And that is because the 
utility industry expects to invest nearly $2 trillion to 
enhance and modernize energy infrastructure over the next 
decade. At the same time veterans are returning from active 
duty and are having trouble finding jobs. And it was the 
Department of Veterans Affairs that determined about 190,000 
active duty personnel will leave the military annually over the 
next 25 years.
    The need for a highly skilled utility workforce plus a 
pipeline of qualified veterans truly creates a win-win 
opportunity. We need to act and we need to do it now. Our 
industry has been a leader in veterans hiring. We know the 
return on the investment. Veterans have the training and skills 
we require, from their expertise to their inherent sense of 
safety, duty, and leadership. That is why in 2013 PG&E hired 
more than 150 veterans. And since 2010 veterans comprise more 
than seven percent of our overall hires, it is a bit closer to 
eight percent now. These numbers increase when considering 
veterans PG&E trained yet placed at other companies.
    We believe the right approach to hiring veterans is a 
holistic approach used by companies like those participating in 
Troops to Energy Jobs. It includes strategies to identify, 
train, hire, retain veterans, and like my colleagues have said 
to mentor them once they are hired. It starts by working with 
military bases to identify personnel with the right basic 
skills leaving the military, then translating these skills to 
energy jobs.
    In 2013 Troops to Energy launched a national template for 
veterans hiring. It is a roadmap that covers outreach, 
education, recruiting, and retention. It also has guidance on 
how to transfer military training to energy careers, on 
continuing education programs to gain new credentials or 
degrees, and it addresses strategies for identifying candidates 
with military experience.
    PG&E's approach to veteran training and hiring follows the 
Troops to Energy Jobs roadmap. Our program is called Power 
Pathway. And through it we run our Bridge to Utility Worker 
Program targeting veterans. This program is conducted in 
partnership with community colleges, workforce investment 
boards, veterans groups, military bases, and labor to prepare 
veterans for jobs in the utility industry. It is an ecosystem 
that makes it work.
    Since 2008 more than 450 people have graduated from Power 
Pathway, including 250 veterans. Today approximately 85 percent 
of graduates find employment either at PG&E or in the industry, 
usually with better retention rates based on someone not coming 
through the program.
    In addition to recruiting veterans we are focused like the 
others on providing mentoring, coaching, training to help 
ensure we retain and grow the veterans we hire. In 2011 we 
established a veterans employee resource group to support PG&E 
employees with military backgrounds. It is now 700 employees 
strong in just two years.
    I will conclude by summarizing what we believe is the most 
important thing in getting veterans hired and retained, it is 
actually things. Alignment of military and job classifications; 
getting information on which bases have personnel with the 
right skills; access to military personnel during the off 
boarding process; training programs with targeted veteran 
cohorts and mentoring programs once hired. As an industry we 
are very committed to the cause. And I thank you so much for 
having me here today.

    [The prepared statement of John Simon appears in the 
Appendix]

    Mr. Flores. Mr. Simon, thank you for your testimony. I will 
recognize myself for the questions to begin. Mr. Hawkins you 
talked about the average pay that a Chesapeake veteran makes. 
What is the average starting pay for a veteran coming into 
Chesapeake? Do you have that metric off the top of your head?
    Mr. Hawkins. You know, it is, I do not have that exact 
metric. I would say it is in the forties, is mostly where our 
starting pay is.
    Mr. Flores. Okay. Okay. Mr. Szabo, do you have those same 
metrics, average starting salary and average salary for 
veterans at Baker Hughes?
    Mr. Szabo. Unfortunately, sir, I do not have that data.
    Mr. Flores. Okay. Would that be hard to get, to put 
together?
    Mr. Szabo. Probably not.
    Mr. Flores. Okay. If you can, if you could send that 
supplementally to us later that would be great.
    Mr. Szabo. Thank you.
    Mr. Flores. Mr. Simon, do you have that information for----
    Mr. Simon. I do. We have different jobs we are hiring for. 
But as an example an apprentice lineman would start at $52,000.
    Mr. Flores. Golly, that is pretty good. If you would, if 
you can supplementally provide the information for average 
starting salary for all the veterans that you hire, and then 
their average for everybody in the company? If it is not 
proprietary for any of you, that would be very helpful. Because 
it has always been my opinion that this is a great industry to 
build great middle class jobs for hardworking Americans, 
particularly our veterans community.
    Mr. Hawkins and Mr. Szabo, you both talked about coming up 
with a pay differential when Guard or Reserve units are called 
up. Mr. Simon, does PG&E do the same thing?
    Mr. Simon. Yes, we have a similar policy.
    Mr. Flores. You do?
    Mr. Simon. Yes.
    Mr. Flores. Okay. Do any of you know what the aggregate 
amount is that you are paying for those pay differentials for 
each of your companies? Okay. If you can provide it, Mr. 
Szabo----
    Mr. Szabo. Sir, that is going to depend on the individual's 
rank.
    Mr. Flores. Right, but I mean in the aggregate. Like does 
Baker Hughes, does that total for Baker Hughes $20 million a 
year? Or----
    Mr. Szabo. I would not know that detail.
    Mr. Flores. Okay. Okay. If that is not hard to find, that 
would be great. If it is, again, if it is proprietary, do not 
worry about it. It is not a big deal. What, Mr. Simon, you 
talked a little bit about what would make it easier for PG&E to 
recruit vets, what the Veterans Administration and DoD could do 
to help make it easier. I would like to have Mr. Hawkins and 
Mr. Szabo, if each of you could comment on what would make it 
easier for Chesapeake and Baker Hughes respectively to hire 
veterans?
    Mr. Hawkins. You know, I think it is back to those wrap 
around services. I mean, we try to get our employees to 
benefits as soon as possible. But if anything that people, and 
especially veterans, struggle with it is access to resources. 
Even though they know where they are, you know, they may have 
been provided a list, it is that follow up wrap around services 
to check back and make sure that they are accessing the right 
things.
    Mr. Flores. Okay. Mr. Szabo.
    Mr. Szabo. Yes, sir. I believe that we are doing a very 
good job through the ACAP and TAP programs in preparing 
soldiers and servicemen for the transition. However, some of 
the pitfall that we see is that they do not have the 
appropriate certifications at the time that they are still in 
uniform. So by the time we actually see those individuals out 
at a military specific job fair, we are trying to give them 
that information to go and obtain a certification, you know, a 
CDL license, a Class A with a hazmat certification. Some of 
them would like to go into project management, so we try to 
give them some directions on how to go down that road and 
obtain a PMP certification through the Project Management 
Institute. Those specific types of certifications for those 
specific types of opportunities that they are looking for they 
seem to not be getting that information until they exit the 
service. So getting that information and perhaps giving them 
that training while they are still in uniform I believe would 
streamline the process.
    Mr. Flores. Okay. There are, there is a category of state 
services. One is called Disabled Veteran Outreach Program 
Specialists, or DVOPS, and then another one is called Local 
Veteran Employment Representatives, or LVERs. Do any of your 
companies work with DVOPS or LVERs to try to find employees to 
add to your workforce?
    Mr. Simon. I believe, Mr. Chairman. I do not have the 
information off the top of my head. I would like to send it to 
you, if that is okay?
    Mr. Flores. Okay. That would be good.
    Mr. Hawkins. As far as Chesapeake goes, we have dedicated 
recruiters that work strictly military recruiting and they do 
utilize both of those.
    Mr. Flores. Okay. They look to the state resources as well?
    Mr. Hawkins. They do.
    Mr. Flores. Okay.
    Mr. Szabo. It is the same for Baker Hughes, sir.
    Mr. Flores. Okay. Gentleman, I appreciate your testimony. I 
am going to yield my time to Mr. Takano for five minutes for 
his questions.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Simon, you may 
know that Congressman Cook and I are both sponsors of a bill 
that would try to replicate the success of our Work for 
Warriors program in California. Are you familiar with that 
program? And does PG&E work with them to place Reservists and 
Guardsmen?
    Mr. Simon. We do, Mr. Takano. We do, Congressman.
    Mr. Takano. Well, that is great. Well, thank you. I wanted 
to ask you, currently where are veterans being trained for jobs 
in the utility sector? Where are they being trained for jobs in 
your sector?
    Mr. Simon. In our program?
    Mr. Takano. Yes.
    Mr. Simon. Power Pathway? They are trained at community 
colleges which are sprinkled throughout our territory in 
Central and Northern California. There are several different 
community colleges.
    Mr. Takano. So you work with the California community 
colleges for the training?
    Mr. Simon. We do.
    Mr. Takano. That is great. Mr. Hawkins, how much does the 
training institution matter when considering hiring a new 
employee? Does the institution where a new employee received 
their training factor into the hiring decision?
    Mr. Hawkins. We do find that some institutions do provide 
additional training that others do not. We do partner with 
mostly vocational and technical schools for our field based 
training.
    Mr. Takano. And what kind of job training is available for 
your new hires once they are brought on board?
    Mr. Hawkins. We do. We have specific field based training 
that we do in house. And if they are brought into a more 
technical role, a professional level engineering role, we do 
have in house as well as contracted services for professional 
development.
    Mr. Takano. And when you contract out, are they also with 
the same technical schools or community colleges?
    Mr. Hawkins. It varies.
    Mr. Takano. It varies.
    Mr. Hawkins. It basically, whatever is required for the 
job. It could be around automation, it could be around a 
specific software, it would be equipment based. So then we 
would be working with whoever our partner is in our field 
locations.
    Mr. Takano. And is the cost associated with it picked up by 
the company?
    Mr. Simon. Absolutely.
    Mr. Takano. Or is it shared with the employee?
    Mr. Simon. No, it is a company expense.
    Mr. Takano. Mr. Szabo, or is it Mr. Szabo?
    Mr. Szabo. Yes, sir.
    Mr. Takano. Mr. Szabo, have you seen a difference between 
the quality of institutions where students are trained, are 
some good, or some better, or some not so good?
    Mr. Szabo. Absolutely. There are quite a few universities 
that we partner with for our field engineer program. Obviously 
they offer top notch engineering types of degree programs. For 
our field specialist programs we target two-year particular 
associate degree types of degrees. Also we target the tech and 
trade schools. But as you previously asked the former panel, 
are they regionally accredited, are they nationally accredited? 
We certainly look for those regionally accredited schools.
    Mr. Takano. So why do you look for that type of 
accreditation?
    Mr. Szabo. We just actually that those certain 
accreditations regionally are going through a very high 
academic rigorous standard.
    Mr. Takano. And typically these are also fungible credits 
they can----
    Mr. Szabo. That is correct.
    Mr. Takano. Your employees can also layer another degree on 
top of this----
    Mr. Szabo. That is correct.
    Mr. Takano [continuing]. Because they are transferrable?
    Mr. Szabo. That is correct.
    Mr. Takano. Well that is great. Thank you so much. I yield 
back my time, Mr. Chairman.
    Mr. Flores. Thank you, Mr. Takano. Mr. Cook, you are 
recognized for five minutes.
    Mr. Cook. Thank you, Mr. Chair. Mr. Simon, first of all I 
am going to be very parochial. Since you represent California 
and Pacific Gas & Electric, and the West Coast, I was Chair of 
the Veterans Committee out there and your company or 
corporation has done a great job for years. So I appreciate 
that.
    Mr. Simon. Thank you.
    Mr. Cook. As well as the other, the whole energy industry 
compared to some other people. I think they get it in terms of 
hiring veterans.
    Now I am going to put you on the spot after that and we 
might as well start with Mr. Simon. You have got a month to go, 
you are going to retire, you are going to go to England, you 
are going to become a beekeeper like Sherlock Holmes. And 
somebody asks you the question, you know, when you had the job, 
what was the biggest problem with the federal government? Was 
it getting on bases? Or were they giving you the run around? If 
you had nothing to lose, you are going out the door, and simple 
question, right? So could you----
    Mr. Simon. The first problem is that I cannot afford the 
taxes in England. But past that----
    Mr. Cook. How do you pay them in California?
    Mr. Simon. I understand the spirit of the question. I think 
the biggest issue that I would talk about is the lack of 
coordination between federal agencies. Whether it is skills 
translation, getting access to military bases, whether it is 
having standardized credentials that are recognized by private 
companies like ours. We deal with the DoD, we deal with the 
DOE, we deal with the DOL. And I think but to a much lesser 
extent, candidly we deal with the VA. And it feels like the 
right hand might now know what the left hand is doing.
    Mr. Cook. How about individual, I do not want to call out, 
or individual service. But do you get the run around when 
trying to get on bases to--for job fairs? And this question is 
for everybody. Because that I think we can kind of help you 
with. But sometimes, you know, certain bases or people get very 
bureaucratic in their approach to some of these things.
    Mr. Szabo. Yes, sir. Actually a couple of my employees are 
still members of the Guard and Reserve so fortunately they 
still have the ability to access the base with the ID in their 
pocket. However, there are times where we do need to access the 
base with some hiring managers that would like to attend and 
make on-the-spot offers. And in that case we are forced to 
obviously go through the visitors center, which takes a little 
bit more coordination. But I believe for the most part it has 
been a pretty easy process for us to actually access base.
    Mr. Cook. Mr. Hawkins.
    Mr. Hawkins. I cannot really add to that. We have had no 
problems at all getting on base in any of the career fairs that 
we have attended.
    Mr. Cook. Do you share that same concern about the right 
hand not knowing what is going on with the left hand?
    Mr. Hawkins. I, you know, it can appear that way from time 
to time. But not knowing what the exact circumstances are, you 
know, it is hard to say.
    Mr. Cook. Yes. After being in the military for 26 years 
sometimes it was very, very frustrating. But I think that is 
something we might be able to help in the future in terms of 
encouraging that cooperative effort when we have one goal and 
everything like that.
    But I appreciate it. As I said, I just want to say your 
industry seems to be very proactive in offering those jobs and 
accomplishing that. And I wish more, you know, they talk a lot 
and they don't do it. And I am kind of a bottom line person. So 
thank you very much for being here. I yield back.
    Mr. Flores. Thank you, Mr. Cook. We have been trying to 
work to get the VA and the Department of Labor to work together 
much more closely and, I don't know, hopefully we will all 
still be alive when we get that accomplished. But anyway, I 
want to echo one of the statements that Mr. Cook said, and that 
is that your companies and organizations get it. And I think 
the three panelist organizations that were here on the first 
panel, that those organizations get it as well. And so we 
appreciate your testimony today. We appreciate what you do for 
America's hardworking veterans. And you are now excused.
    I want to thank everybody that attended the panel today and 
for the frank discussion on jobs in the energy sector. I now 
ask unanimous consent that the statement from the Veterans 
Green Jobs be submitted for the record. Hearing no objection, 
so ordered.

    [The statement of Veterans Green Jobs appears in the 
Appendix]

    Mr. Flores. Finally I ask unanimous consent that all 
members have five legislative days to revise and extend their 
remarks and to include any extraneous material in the record of 
today's hearing. Hearing no objection, so ordered. And if there 
is nothing further, this hearing is adjourned.
    [Whereupon, at 3:22 p.m., the subcommittee was adjourned.]

                                APPENDIX

                                 <F-dash>

Battlefields to Oilfields, PEC/Premier Safety Management, by Mr. Wesley 
                                  Carr

I. What is B2O?

    Battlefields to Oilfields (B2O) is an initiative by PEC/Premier 
Safety Management that helps veterans get the skills and training 
needed to obtain successful, rewarding careers in the oil and gas 
industry. B2O is the brainchild of PEC founder, Charlie Carr.
    Mr. Carr recognized that with over 50% of the oil and gas workforce 
reaching retirement age within the next 10 years, the industry is on 
the verge of a major labor crisis. At the same time, dismayed by the 
inordinately high unemployment rate for our returning veterans, Mr. 
Carr saw an opportunity to help our returning service men and women 
while simultaneously addressing the imminent worker shortage in the oil 
and gas industry.
    Through the vehicle of B2O, PEC could get training for our veterans 
in essential, industry-recognized courses and help place them in career 
driven jobs through the network of employers we have cultivated over 
the past 20 years of industry service.
    By partnering with different schools and training entities around 
the nation, B2O aims to reach its vision of helping any veteran, 
regardless of location, find a job in the oil and gas industry. B2O is 
working on procuring as many different funding sources as possible in 
order to subsidize our veterans' training in as many different oil and 
gas occupations as possible. While veterans' benefits are the most 
readily available funds accessible to our applicants, not all are 
eligible for them so other forms of funding must be procured in order 
for all applicants to have equal opportunity to attend.
    Our plan is to have multiple approved programs in our network 
taught by different providers across the United States. These programs 
will cater to the specific needs of the veterans that attend and to the 
industry in their area of the country. This will allow us to pair 
veterans with the training required for the career path they desire and 
meet the needs of the employers in that geographic region and industry 
sector.
    Upon graduation from a given program, our team of placement 
professionals evaluates and analyzes graduates and current job openings 
to connect graduates with jobs that fit their unique skillset, location 
and job preference. Some of our methods include B2O job fairs held on 
or near the training location, on-line interview facilitation, and 
email notifications to graduates and employers.

II. How does B2O Work?

    B2O is a service that helps veterans obtain the training needed to 
secure careers in the oil and gas industry. We are not a VA approved 
program nor do we operate a VA approved program. Our model is to 
partner with schools and training providers who already perform 
industry-relevant training that meets the needs of one or more sector 
of the oil and gas industry. VA approval is not a requirement for 
partnership with B2O but it does often simplify the enrollment process 
for applicants; students can pay the individual training providers with 
any funds available to them. During the application process, applicants 
are informed of the funding options available for the programs in our 
network. If VA funding is not available for a given program, other 
funding must be obtained. B2O is contracted to schools and training 
providers to deliver administrative support in the form of recruitment, 
enrollment, and placement. While our model focuses on helping veterans 
find employment, anyone can apply to B2O and attend any program to 
which they are accepted.
    Our process helps the veteran step-by-step from application to 
graduation. When we receive an application, the applicant is contacted 
by one of our enrollment specialists to evaluate the applicant's 
situation in order to help match them with the program that will best 
fit their needs. Some factors we consider are:
        <bullet> Current employment status: Will the applicant be able 
        to take off work to train? If so, for how long?
        <bullet> Type of work desired: In what region and sector does 
        the applicant want to work?
        <bullet> Willingness to relocate: Is the applicant willing to 
        move to another region to find work?
        <bullet> Funding: Does the applicant have veteran's benefits? 
        If so, how much? If not, what other funding is available?

    Any one of these factors can lead to more questions which will 
ultimately give us the ability to recommend a training program that we 
believe will suit the applicant and provide them with the best 
opportunity to obtain the job they want.

III. What is the current status of B2O?

    We are not a VA approved training provider and as such receive no 
money from the VA. We instead partner with schools to provide 
administrative support for their training programs we have determined 
to be industry-relevant to one or more sectors of the oil and gas 
industry. B2O has found much success in finding veterans that need work 
and facilitating the training and placement of those veterans within 
the Oil & Gas Industry.
    The single most important aspect of Battlefields to Oilfields' 
success is our placement. Without our high placement rate of 95% 
(2013), B2O would not be able to fulfill its mission of servicing our 
returning veterans. The high placement rate over the past year for our 
primary program has largely been due to supplying the Oil and Gas 
Industry with potential employees that have been trained in the areas 
companies need most. B2O assesses the demands for training in the 
industry and helps enroll applicants into programs that train in those 
areas. This pairing is the key to successful placement of veterans in 
long-term oil and gas careers.
    We have found that the industry is in need of training in the 
following areas: HAZWOPER, H2S, OSHA General Industry, First Aid, 
Personal Safety and Social Responsibility, PEC Core Compliance, 
Personal Survival with Helicopter Underwater Egression Training, 
SafeGulf, Security Awareness, SafeLandUSA, Confined Space Rescuer, 
Safety Environmental Management Systems, and Safety Tech.
    B2O provides this service to South Central Louisiana Technical 
College (SCLTC) to facilitate veteran training for their Marine 
Operations Program for Safety and Skills Training. We are also 
developing relationships with technical colleges, community colleges, 
training providers, and nonprofit organizations in order to meet the 
increasing demand by veterans for oilfield training and demand by 
employers for trained and skilled workers.
    Currently SCLTC's Marine Operations Program for Safety and Skills 
Training is undergoing a VA audit. VA funding has been temporarily 
suspended until the audit findings are fully resolved. The VA has found 
five (5) items that must be addressed and SCLTC is working tirelessly 
to a resolution. When all the items are addressed, the VA will allow 
funding to continue.

    IV. What does B2O hope to do?

    Battlefields to Oilfields' goals are to enhance veteran 
employability by providing them with the means to earn a fulfilling 
career in the oil and gas industry. Through thorough research on our 
industry and the relationships we have formed with major oil and gas 
companies as well as their contractor workforce, we have been able to 
determine the training and qualifications oilfield employers require of 
their employees. We use this knowledge to determine what training 
programs to include in our approved program network. Vetting training 
programs based off of this data allows us to choose programs that 
directly relate to specific oilfield jobs while giving employers the 
assurance that the graduates of that program are ready for work.
    The success of students that have completed B2O approved programs 
has led to increased demand not only for training but for the graduates 
of these programs. Employers want to hire them. The 2013 placement rate 
for SCLTC's 28-day program is 95% and we have already placed over 80% 
of students trained this year (2014). Most of the employers hiring 
these students operate on or around the Gulf Coast, but several 
students have been hired to work in the Bakken Shale play in North 
Dakota and other areas around the United States. Anywhere that oil and 
gas operations are being conducted, students with this kind of training 
are in demand.
    B2O wants to meet the needs of these employers wherever they are by 
connecting them with a trained and qualified veteran workforce. To do 
this we will expand our efforts to areas where these employers operate. 
We will establish partnerships with schools and training providers who 
have developed training programs that meet the needs of employers in 
their region and are VA approved or have access to other forms of 
funding. We will provide administrative support (enrollment, placement, 
customer care, etc.) to these providers' operations across the country. 
Additionally, we will form new relationships, or cultivate existing 
relationships, with employers in the individual providers' areas of 
operation; this will help facilitate hiring events and further increase 
graduate placement.
    VA funding is not an approval requirement for programs in our 
network. We are constantly researching other forms of funding, public 
and private, that will help veterans get the training they need to 
obtain a career. Programs that are funded by the VA simplify the 
process, but for those veterans who do not have or have exhausted their 
veteran's benefits, we must find other no-cost and low-cost options. We 
envision these possibilities taking the form of private scholarships, 
student sponsorships, and as yet undiscovered sources. Wherever 
possible, we want to be able to provide this service at no cost to the 
student.

    V. What are obstacles B2O faces?

    Battlefields to Oilfields has training facilities to use, companies 
eager to hire graduates, curriculum guidelines, and receives nearly 600 
applications a month. What we lack is multiple VA approved training 
providers. In order for this initiative to reach full effectiveness we 
need multiple VA approved programs operating in our network. We need 
this for several reasons: meeting the demand for training, meeting the 
demand for a trained workforce, and ensuring that students have options 
if VA approval for an individual program falls under review. The last 
of these is an issue we are currently experiencing.
    The primary approved program in our network (SCLTC's Marine 
Operations Program for Safety and Skills Training) is currently under 
review, during which time VA funding for the program is suspended. B2O 
has paid out-of-pocket for one class already and plans to pay for 
another if funding is not restored in time. We are doing this because 
we do not want to abandon those that have already enrolled, and because 
we believe that this training makes a tangible difference in the lives 
of these veterans. We do not want to jeopardize that. Unfortunately 
that model is not sustainable--we must find another VA approved program 
to which we can send applicants very soon. This is especially important 
if SCLTC's funding for their program is not restored.
    By securing partnerships with multiple VA approved training 
providers, B2O will be able to accommodate applicants by pointing them 
towards trainers who are VA approved even if one of the programs in our 
network falls under review . . . thereby better meeting the needs of 
the veteran.

    VI. What does B2O need?

    The need for VA approved programs is very high. Veterans' benefits 
are the main source of educational funding for most of our applicants. 
While we know that there is other funding available, nothing can match 
the scope of Veterans' benefits. Because of this, we need additional VA 
approved programs available to include in our network. We also need 
that approval to be predictable, consistent, and compliant with VA 
standards.
    Another possible avenue is obtaining approval for our own 
coursework and curriculum that B2O could directly administer. This 
would relieve us from having to solely rely on our partners' approval 
status. While the majority of graduates will still presumably come from 
our network partners, approval of our own program would allow us to 
accommodate more students and more employers in more locations.
    This would require an exemption to the VA regulation that requires 
all VA approved entities to be operating as a school in that state for 
at least two (2) years. Allowing B2O to receive direct VA funding for 
training would allow us to reach and place hundreds more veterans than 
we can currently. It would allow us to set up permanent training 
facilities across the country and directly control the quality of 
training students would receive. We would be able to establish roots in 
local communities and form lasting relationships with employers in that 
region. This kind of exemption is not without precedent.

        Prepared Statement of Col. Randall E. Wooten, USAF (ret)

    Background and History
    Texas State Technical College (TSTC) was established in 1965 as the 
James Connally Technical Institute (JCTI) of Texas A & M University to 
meet the state's evolving workforce needs. JCTI was located in Central 
Texas at the former James Connally Air Force Base in Waco. In 1967, 
JCTI expanded to include a South Texas campus in Harlingen. Additional 
locations soon followed.
    JCTI separated from Texas A&M University in 1969 and became an 
independent state system with its own nine-member Board of Regents and 
the name Texas State Technical Institute (TSTI). In 1991, the Texas 
Legislature elevated the status of TSTI's campuses by designating them 
as technical colleges with the name Texas State Technical College.
    Since the inception, TSTC has grown to include four colleges and 
several off-site teaching locations. The four independent colleges 
within the Texas State Technical College System are co-educational, 
two-year institutions of higher education offering occupationally 
oriented programs with supporting academic courses for certificates or 
associate degrees. Emphasis is on advanced and emerging technical 
programs not commonly offered by public junior colleges with a core 
focus on placement and earnings outcomes. For 49 years, TSTC has been 
producing top-quality graduates, who are nationally recognized for 
their highly specialized, technical capabilities and job-ready skills. 
TSTC's strong relationship with business and industry ensures that 
coursework focuses on the regional and statewide needs of Texas' 
employers and leads to success in the job market.
    TSTC is Texas' only state-supported technical college system. Its 
statutory mission is to provide an articulated and responsive technical 
education system aimed at identifying and addressing industry needs. 
These two features make TSTC unique among institutions of higher 
education. The TSTC System currently has campuses in Waco, Harlingen, 
Marshall and West Texas, with locations in Abilene, Breckenridge, 
Brownwood and Sweetwater. The System also has off-site teaching 
locations in Hutto, Ingleside, Red Oak and Richmond, in addition to 
partnerships with many of the state's public junior colleges.

Accolades

    TSTC's colleges consistently rank as top producers of associate 
degrees in engineering, precision production, computer information 
systems, computer & information sciences, and enrollment of Hispanic 
students. In Community College Week's annual report titled ``Top 100 
Associate Degree Producers,'' TSTC has ranked number one in Texas 
numerous times in one or more categories and has consistently stayed 
among the top 50 colleges in the nation in nearly every applicable 
category.
    In the 2012 report, TSTC Waco ranked number one in Texas for 
graduating the most students in the categories of precision production, 
engineering technologies/engineering-related fields, and computer & 
information sciences & support services. In both 2012 and 2013, the 
college ranked third in the nation for conferring engineering-related 
associate degrees.
    TSTC offers more than 151 Associate of Applied Science (AAS) 
degrees and certificates and has produced more than 93,570 graduates in 
its nearly 50-year history. TSTC Harlingen also offers seven Associate 
of Science (AS) degrees in biology, computer science, engineering, 
mathematics, physics, nursing preparatory and health professions.
    Since 2009, the TSTC System has generated a 32 percent increase in 
graduates and a 36 percent increase in job placements. The combined 
first-year earnings of TSTC graduates are projected to surpass $56 
million in new salaries for Texas--a 54 percent increase over the last 
four years.

    Demographics

    TSTC students across the System are a diverse group 
demographically. They are 65.7 percent minority (56.91 percent 
Hispanic, 8.60 percent black, 0.19 percent other minorities) and 34.3 
percent white. The student body is comprised of 39.83 percent females 
and 60.17 percent males. Students come from 200 of Texas' 254 counties, 
and nearly 63 percent are economically disadvantaged.

Veterans at TSTC

    TSTC is proud to have many veterans of the armed services among its 
graduates. Of those, many have earned a certificate or degree in an 
instructional program that supports careers in the energy sector.
    Sarah Kimble graduated from TSTC West Texas in 2014 with a degree 
in Computer-Aided Drafting and Design Technology. Sarah previously 
served in the United States Air Force and has a bachelor's degree in 
criminal justice. Before graduating, Sarah was hired and given an above 
average starting salary by Nicholas Consulting Group, a multi-
discipline engineering firm in Midland, Texas. Nicholas Consulting 
provides process, mechanical, civil/structural, electrical and control 
engineering services primarily to the oil and gas industry.
    An eight-year military veteran, Christopher Bowdoin graduated from 
TSTC Marshall in 2014 as a Process Operations Technician, training 
which is attractive to a variety of process industries - including 
chemical, food and beverage, oil exploration and production, 
pharmaceuticals, power generation, pulp and paper, refining and 
wastewater treatment. Christopher transferred to TSTC from another 
college and, upon completion of his degree, was hired as a Field 
Specialist for Chevron, a worldwide integrated energy company.
    Veteran enrollment in the current academic year has surpassed 1,000 
across all TSTC campuses (1,059 in total). Approximately 30 percent of 
these students are enrolled in instructional programs that support 
careers in the energy sector.
    All TSTC campuses are designated as Military Friendly Schools, 
which are those in the top 20 percent nationally that deliver the best 
experience for military students. Additionally, all TSTC campuses are 
participants in the Texas' College Credit for Heroes initiative. See 
www.collegecreditforheroes.org. The initiative is a partnership between 
the Texas Workforce Commission and the Texas Higher Education 
Coordinating Board. It connects active duty, former and retired 
military personnel with higher education institutions that maximize 
their military experience toward college degrees and certificates.
    The College Credit for Heroes program complements the efforts of 
on-campus Veterans Affairs liaisons, who facilitate VA benefits like 
the post 9-11 GI Bill and other financial aid programs. Additionally, 
using grant funds, TSTC Waco developed an online tool for veterans, 
called Credit Crosswalk, so they can determine if college credit can be 
awarded for their military training. The Crosswalk compares military 
occupations to TSTC's coursework and is used to determine if military 
training is transferrable to TSTC. The Crosswalk is available online at 
www.waco.tstc.edu/veterans/militaryoccupations.

    Cooperative Efforts With Business & Industry

    The strength of TSTC's instructional programs rests in the strong 
relationships each campus has with business and industry. Each 
instructional program is supported by an ``Advisory Council'' made up 
of members within the industry served by the program. In each program 
area, Council members direct the development, evaluation and on-going 
modifications of curriculum and course content so that graduates 
possess the knowledge and skills necessary to enter the workforce with 
little or no additional training.
    Often, TSTC campuses develop customized partnerships with 
businesses to tailor curriculum specifically for the needs of that 
company. For example, the global corporations Fluor and Bechtel helped 
TSTC develop a customized curriculum in Welding Technology that 
includes specific skill sets and an accelerated schedule. Luminant 
Energy is currently working with TSTC to create a pipeline of skilled 
workers to meet the company's demand. The company is involved in the 
recruitment of potential students, selection of candidates in the 
program, monitoring of the students' progression, and advising on 
curriculum needs. Graduates leave TSTC with assured employment.

Instructional Programs and the Energy Sector

    According to statistics from the Office of Gov. Rick Perry, the 
energy sector contributes more than $172 billion to the Texas economy, 
and that number is growing. Growth is fueled, in part, by the use of 
new technologies, such as hydraulic fracturing and horizontal drilling. 
Nearly 900,000 Texans are employed in the energy sector today, but 
Texas anticipates 26 percent growth in employment across the sector 
from 2010 to 2020, according to statistics released by the Texas 
Workforce Commission's Strategic Assessment Workforce Program. That 
translated into 92,776 new energy jobs between 2011 and 2013.
    TSTC offers numerous instructional programs which are in high 
demand in Texas' booming oil, gas and wind industries. Although many of 
these programs support multiple industry sectors, they are vital to the 
energy sector. TSTC's degree and certificate programs that support 
careers in the energy sector are listed below:

    <bullet> Air Conditioning/Heating/Ventilation Technology
    <bullet> Drafting & Design Technology / Architectural & Civil 
Drafting
    <bullet> Building Construction Technology
    <bullet> Welding Technology
    <bullet> Computer Maintenance Technology
    <bullet> Computer Networking & Systems Technology
    <bullet> Instrumentation & Robotics Technology
    <bullet> Diesel Equipment Technology
    <bullet> Environmental Health & Safety Technology
    <bullet> Electrical Power & Controls Technology
    <bullet> Electrical Systems Technology
    <bullet> Industrial Systems Technology
    <bullet> Mechanical Engineering Technology
    <bullet> Plumbing & Pipefitting Technology
    <bullet> Civil Engineering/Surveying Technology
    <bullet> Chemical Technology
    <bullet> Mechatronics Technology
    <bullet> Wind Energy Technology
    <bullet> Process Operator Technology
    <bullet> Applied Engineering Technology
    <bullet> Oil & Gas--Downhole Tool Technician

Instructional Delivery Specializations

    Many TSTC students in these programs are veterans, and the 
technical skills they master at TSTC complement their military 
training, resulting in a very high placement rate for these graduates. 
TSTC has developed specialized programs that allow veterans to 
accelerate their completion time by demonstrating the skills they 
mastered during their service, thereby getting them to the workforce 
more quickly.
    One such program is a new competency-based educational initiative 
designed to shorten the time necessary to earn an award. The new 
competency-based education model, however, does not sacrifice the 
quality of the skills learned. TSTC began offering this competency-
based approach in the fall of 2013 at two locations. The model aligns 
particularly well with the needs of veterans, displaced workers and 
career-focused high school graduates.
    Competency-based programming is designed to allow a student to 
demonstrate mastery of real-world job skills at his or her own pace. In 
this way, a student will not spend unnecessary ``seat time'' in classes 
reviewing information he or she already knows, either through past job 
experience or through military service. As a result, a two-year welding 
degree can now be completed in as few as four semesters--saving time 
and money while minimizing a student's deferred wages. Competency 
programming also ensures that the student learns and masters each 
required skill, rather than simply earning an average score for a 
semester-long course.

Conclusion

    Without exception, the colleges within the TSTC System are 
committed to serving U.S. military veterans. TSTC is also committed to 
finding innovative educational pathways for the efficient and cost-
effective transition of veterans into the workplace. The competency-
based learning prototype is one such pathway. As part of Texas' Skilled 
Workforce Initiative, the prototype is intended for statewide 
implementation and is geared toward assisting veterans wanting to 
maximize military training and earn a college credential. With the 
competency-based learning model in place and access to the Credit 
Crosswalk, veterans attending TSTC are able to make the most of their 
military training as they successfully transition into the civilian 
workforce.
    Texas has long been a leader in the energy sector; however, recent 
growth in that sector has been exponential. That means veterans will 
continue to have access to a wide array of jobs. TSTC's partnerships 
with industry through Advisory Councils, as well as collaborative 
efforts with industry to design specialized curriculum, ensure that 
students graduate with job-ready skills which match or exceed industry 
standards. Business and industry groups across Texas well understand 
TSTC's commitment to hands-on training and a highly skilled workforce. 
Therefore, when industry wants qualified workers, it comes to TSTC.

                                 <F-dash>

               Prepared Statement of Tyrone Everett, MSW

    Good afternoon, thank you for inviting me today. My name is Tyrone 
Everett, I am the East Coast, Mid and Southwest Regional Director of 
Center for Employment Training, also known as CET. We are a 501(C)(3), 
not-for-profit organization that has been providing skill training and 
human development services to very poor and hard-to-serve individuals 
since 1967. In our history CET has trained and placed over 135,000 men 
and women including veterans in marketable, living wage jobs. The 
primary purpose of our organization is to train people for full time 
jobs and get them into the workforce. Our experience over 47 years is 
that most people would prefer to be independent, and have control of 
their own lives!
    CET is training more and more job seekers in green energy sector 
skills. Our decision making about what occupational courses to offer is 
unique because it is largely governed by partnerships with private 
industry and the market sector. Each CET training center has an 
employer based-Technical Advisory Committee that provides guidance and 
leadership in which skills are in demand in the local or regional area. 
They advise us on what are the most current and cutting edge 
applications and equipment used in a skill sector. This way we are 
always able to remain flexible and move when new opportunities come up 
to train in a growing occupational sector. All of our industry advisors 
say the same thing:
    The green energy sector is only going to get bigger and will soon 
spread to more diverse markets.
    Currently, about seven percent of our trainees are veterans, and 
increasingly we are seeing more and more vets coming through our doors. 
We are approved by the VA to serve veterans in all of our 15 centers in 
five states and ready to train more of them. In some ways, veterans are 
the easiest students to train because they have higher levels of 
education than most individuals seeking vocational skill training, they 
are also disciplined and motivated. But, they can also be the most 
challenging to train, because frequently, veterans that have served in 
combat, particularly recently discharged veterans, have needs that are 
unique to their experience in the service to their country!
    I'd like to tell you that providing quality training in new and 
growing demand skills, such as green construction, or green heating and 
cooling technology is enough to successfully transition veterans from 
military service to the civilian workforce. Yet more is required to 
equip veterans with the skills and tools to obtain and retain 
meaningful employment. The other component that is necessary for 
success is applied resources--specifically immediate intensive 
supportive services that can address the pressure that readjustment to 
civilian society can bring. CET takes this head on in our training 
model and offers a full menu of supportive services that help to keep 
our veterans in training and overcome roadblocks to achieving their 
career goals.
    Our approach in green technologies training for veterans uses a 
hands-on ``contextual model'' that provides skill training in a 
simulated workplace environment. Students clock in and out just like 
they might at work and from the very beginning, they get their ``hands 
on the machine'' and learn in large part by doing.
    We `provide the most up to date, technologically current training. 
Being on top of the newest technological trends helps to advance 
veterans' career prospects in green technology occupations. Part of 
that effort, and this is a KEY component, is that in addition to 
offering relevant job training, we assist our veterans to earn 
industry-specific credentials and certifications. In this way, when our 
job development staffs start the process of helping our veterans to 
obtain employment, the student is already ahead of the game because he 
or she has industry-specific certifications that make them much more 
employable. This is the new trend and a vital component of successfully 
obtaining employment.
    In closing, I want to get back to what I stated previously about 
the importance of applied immediate supportive services to keep the 
veteran in training. An intensive case management approach to remove 
potential barriers to success is very important. The best training in 
the world in the hottest occupation or industry sector is of no use to 
a discouraged veteran that drops out of training because of a lack of 
immediate support and resources.
    To this end, we have one recommendation! That the VA help veterans 
access the education and housing benefits that they are entitled to as 
quickly and efficiently as possible. The first 90 days after a veteran 
is discharged is a fragile period that demands that all of us respond 
with the utmost urgency. In the military, especially when in combat, 
immediacy is the order of the day. To do otherwise could be a disaster. 
Discharged veterans feel the need for a similar immediacy as they 
transition to civilian life. We are confident that if veterans can 
access their benefits in a more timely manner, we can train then in the 
new technologies in the green energy sector. We will offer them first 
class training and intensive support services and then send them into 
the private sector with industry-specific certifications, and they will 
succeed and thrive!
    We must all give them our best efforts and have the same sense of 
commitment and dedication that they had when they served all of us and 
our country. We owe them that much.
    Thank you very much for taking my testimony and for your time 
today.

                   Prepared Statement of Jay Hawkins

    Chairman Flores and members of the Subcommittee, thank you for the 
opportunity today to discuss Chesapeake Energy Corporation's veterans' 
hiring program, which has become a remarkable success story for our 
company. I am Jay Hawkins, vice president of Human Resources for 
Chesapeake Energy Corporation.
    Chesapeake is based in Oklahoma City and is the nation's second-
largest producer of natural gas and the 11th largest producer of oil 
and natural gas liquids. We are proud to have helped lead the way in 
what has become known as the oil-and-gas shale revolution. This 
domestic supply revolution has taken place across the U.S., creating 
jobs, generating significant economic activity and changing our 
nation's energy future. This includes reducing our dependence on 
foreign oil and helping offer energy solutions for some of our allies 
around the world.
    I am here today because, as a part of our success in recent years, 
our company is also a top employer of veterans, as well as members of 
the Reserve and Guard. I am honored to say these employees represent 
about 11% of our total employee base. This is especially significant as 
this hiring has occurred during a recessionary period when many tens of 
thousands of veterans were returning home seeking employment. Of note, 
the average annual salary of these veterans at Chesapeake is $61,500.
    Our efforts to recruit military servicemen and servicewomen began 
in 2008. But what originally started as a small component of our 
recruiting efforts quickly grew into an organic success.
    Our targeted recruiting outreach has resulted in the current 
employment of about 1,200 veterans or members of the Guard or Reserve 
in positions ranging from rig hands to engineers. In fact, of the 
nearly 3,000 employees hired by Chesapeake in 2013, about 200 were 
members of the Guard or Reserve and about 230 were veterans.
    Initially, Chesapeake recruited only junior military officers, 
lieutenants and captains retiring from service for specialized 
positions. But we quickly expanded efforts to include hiring former 
enlisted personnel to work in the field, realizing these men and women 
could be a natural fit. For instance, many maintenance and electronic 
technicians were trained in the military, and we are able to naturally 
transition their experience to the oil-and-gas industry.
    Our specific recruitment efforts include participation in veterans 
recruiting fairs--Chesapeake attended about 50 in 2013--and a veterans-
only e-mail address where military candidates can contact our 
recruiters directly. In total, fifteen percent of our 2013 recruiting 
budget was dedicated to recruiting veterans.
    The result of the continued success of our program is that today we 
plan to add military veterans in locations across the country, 
including Ohio, Oklahoma, Texas, Pennsylvania and Louisiana in 
positions like field engineers, Environmental Health & Safety (EH&S) 
representatives, pumpers, equipment operators, business analysts and 
rig hands.
    Once hired, Chesapeake works hard to help our veteran employees 
during their transition. In 2011, we created ``CHK Troop Connect'', an 
online community where employees with military affiliation and their 
families can connect and support each other as they transition to 
civilian life and begin new careers. ``CHK Troop Connect'' offers 
Guard/Reserve/veteran employees and employees with military family 
members opportunities to connect with each other, plan activities and 
share stories. This group hosts networking events, community-service 
projects, welcome-home and farewell gatherings and other military-
focused activities. We understand this support and continued transition 
assistance is vital.
    Moreover, just this month, we were pleased to announce a new 
Military Differential Pay Benefit for all full-time Chesapeake 
employees who have completed at least one year of employment and are 
called to active duty or military training for 30 or more days. Under 
this benefit, our company will pay the difference between an eligible 
employee's Chesapeake salary and his/her military pay as a lump sum 
amount upon return to work.
    While we know that veterans have an unmatched work ethic, 
commitment to team work and leadership skills, we now directly benefit 
from these skills and contributions on a daily basis. As our CEO said 
to our employees on Veterans' Day 2013--when senior management and 
supervisors also presented each service member with a commemorative 
coin in individual ceremonies--``these individuals provide strength, 
stability and commitment to our company, in addition to the diverse 
skills and expertise that are essential to our success.''
    Mr. Chairman, you have certainly seen the economic and job-creation 
results first-hand in your home state of Texas; and as a number of 
members of this subcommittee have seen in your own states, the timing 
of the growth of our industry has made this particularly great news. 
Unlike most industries, the oil-and-gas industry has experienced growth 
during a recessionary period, and the outlook for jobs only looks 
brighter in the future.
    We are proud that Chesapeake has been honored by the U.S. Chamber 
of Commerce as one of the top 25 American companies to hire veterans 
and named a CivilianJobs.com's Most Valuable Employer for Military, as 
well as a G.I. Jobs Top 100 Military Friendly Employer for five 
consecutive years. We were also a finalist for the Post-9/11 Veteran 
Employment and Internship Award and a member of First Lady Michelle 
Obama's Joining Forces Initiative.
    In summary, our veterans' hiring efforts have truly proven to be a 
``win-win'' for our company and for the many men and women of our armed 
forces who have now found exciting and rewarding new careers with 
Chesapeake. We are proud that this program provides a solution for our 
needs, as well as our returning veterans' employment needs--all while 
continuing to advance what has become one of our nation's greatest 
stories, the oil-and-gas shale revolution.
    Mr. Chairman, thank you for the opportunity to be here with you 
today. I look forward to answering any questions.

                                 <F-dash>

                    Prepared Statement of Mark Szabo

    Mr. Chairman, Ranking Member Takano, Members of the Subcommittee, 
good afternoon. I am Mark Szabo, Team Lead for the Military Recruiting 
Program at Baker Hughes Incorporated. As someone who spent 16 years in 
service with the U.S. Army Reserve, I feel extraordinarily privileged 
to have made a career out of attracting our veterans to the energy 
sector. I thank you for the great honor of appearing before you today.
    Baker Hughes is a leading supplier of oilfield services, products, 
systems and technology to the worldwide oil, natural gas and geothermal 
industries. While we work in nearly 80 countries, approximately half of 
our more than 58,000 employees are based here in the United States, 
where we conduct the majority of our manufacturing, field services, and 
research and development.
    It is here in the United States that advanced exploration and 
production technologies have perhaps had their most dramatic effect in 
increasing oil and natural gas supplies. This growth brings tremendous 
job opportunities at a time when a large number of servicemen and women 
are leaving the military.
    My mission, and that of the entire Baker Hughes Military Recruiting 
Team, is to bring the immense talents and work ethic of our men and 
women in uniform to bear on energy production. This makes good business 
sense to us, but, in the words of our CEO Martin Craighead, welcoming 
our veterans home to meaningful, well-paid jobs is simply ``the right 
thing to do.''
    Baker Hughes has long sought veterans for our field work, where the 
value of their experience is easily apparent. Mechanical assembly, 
field operations, machining, repair and maintenance and logistical 
coordination all fit within this category. However, we seek out veteran 
applicants at all levels of the company, including in corporate and 
enterprise positions, because we believe military service fosters core 
values that align very well with the Baker Hughes core values of 
integrity, teamwork, performance excellence, learning and courage.
    Almost all of the members of my team are veterans themselves, and 
we bring that experience to bear on our approach to recruiting. We have 
developed a multi-pronged approach to ensure that we are reaching 
veterans at every stage of the transition to the private sector. We 
reach out to current servicemen and women at military installations 
throughout the U.S., and to veterans by participating in military-
specific job fairs. We also partner with several universities with high 
veteran populations, as well as state veteran workforce commissions. We 
encourage veterans who are already members of the Baker Hughes 
community to refer their former colleagues.
    In 2013 we conducted a total of 60 military recruiting events, with 
that face-to-face contact translating directly into 175 hires, with 
many more hires coming through traffic driven to our recruiting 
website. Our intention is to more than double that number in 2014. I am 
pleased to report that so far we are on that pace: we held 23 military 
recruiting events in the first quarter of 2014, hiring an additional 
145 veterans. We are essentially hiring a veteran a day.
    We believe it is important to continue that engagement beyond the 
hiring process, to maintain it as a consistent thread in our employees' 
experience. To that end, we have established a Veterans Resource Group 
to support veterans transitioning to Baker Hughes from active duty and 
connect them with each other and with mentors within the company, 
creating a vibrant network for continuing professional and personal 
development. This program has been enormously popular since its launch 
in 2013--17 local chapters have already been established in Texas, 
Louisiana, Oklahoma and Pennsylvania and many more are underway in 
places like California, Colorado and North Dakota. It will come as no 
surprise to the Subcommittee that these chapters, once formed, turn 
their focus almost instantly to making a difference in the lives of 
other veterans.
    Baker Hughes also believes strongly in supporting those employees 
who continue to serve our country in the military reserves. We have 
policies in place to ensure our National Guard and Reserve employees 
are aware of and receive their benefits, and as our employees are 
called up Baker Hughes pays the difference between their base salary 
with us and their military base pay, from 30 days annually for training 
up to 180 day for an involuntary call to active duty. Baker Hughes was 
recently recognized with an ESGR Pro Patria Award in New Mexico, and I 
am proud to say that the company is a finalist for the 2014 Secretary 
of Defense Employer Support Freedom Award. Like our Veterans Resource 
Group, this is a good program made great through the dedication and 
spirit of our employees.
    We applaud the Subcommittee for shining a light on the 
opportunities available to veterans in the energy industry, and we are 
pleased to do our part. I look forward to the discussion. Thank you.21

                                 <F-dash>

                    Prepared Statement of John Simon

    Good afternoon, I am John Simon, Senior Vice President of Human 
Resources for Pacific Gas & Electric Company. Chairman Flores, Ranking 
Member Takano and the other esteemed members of the Subcommittee on 
Economic Opportunity, thank you very much for allowing me to 
participate in today's hearing and share my company's and our 
industry's perspective of veteran hiring in the energy industry.
    PG&E is one of the largest combined natural gas and electric 
utilities in the United States. Headquartered in San Francisco, with 
more than 20,000 employees, the company provides natural gas and 
electric service to approximately 15 million people--or 1 in 20 
Americans--throughout a 70,000-square-mile service area in northern and 
central California. In line with PG&E's commitment to workforce 
development and training, and in partnership with the Center for Energy 
Workforce Development's (CEWD) Troops to Energy Jobs program, PG&E has 
been a leader in providing job training to military veterans who want 
to work in the utility industry. In 2013, PG&E hired 225 veterans, most 
of whom we trained through our PowerPathway<SUP>TM</SUP> program.
    I am testifying today on behalf of CEWD, which was formed in March 
2006. CEWD is a non-profit consortium of electric, natural gas and 
nuclear utilities and their associations--the Edison Electric Institute 
(EEI), American Gas Association, Nuclear Energy Institute and the 
National Rural Electric Cooperative Association. CEWD was formed to 
help utilities identify and develop effective solutions to address the 
pending workforce shortages facing the utility industry. It is the 
first partnership between utilities, their associations, contractors, 
and unions to focus on the need to build a skilled workforce pipeline 
that will meet future industry needs.

Response to Declining Utility Workforce

    In 2013, CEWD projected that as many as 200,000 electric and 
natural gas utility workers, an estimated 40 percent of all utility 
employees, could leave their jobs in the next five years as they reach 
retirement age or depart due to attrition. This means that, in the 
near-term, the country will need thousands of engineers, technicians, 
lineworkers, plant operators, and pipefitters for jobs in traditional 
energy industries, as well as jobs associated with the advancement and 
deployment of new technologies and innovations, including smart grid, 
advanced end use energy efficiency, and electric vehicles.
    At the same time our nation's utility companies are looking to fill 
vacancies today and into the future, veterans are returning from active 
duty and having trouble finding employment. Many are unable to identify 
a clear pathway toward employment, despite having acquired very 
desirable and needed skills during their military service. According to 
the U.S. Department of Veterans Affairs, approximately 190,000 to 
200,000 active-duty personnel will separate from the military annually 
over the next quarter of a century.
    The need for a quality, high-skilled energy workforce, coupled with 
a pipeline of qualified veterans looking for employment, creates a 
``win-win'' opportunity for our industry. Tapping into the pool of 
ready and able veterans leaving military service will play a crucial 
role in helping the utility industry build the workforce of tomorrow.

Troops to Energy Jobs

    There is no better way to honor our nation's returning veterans 
than to provide them with the support they need to successfully 
transition to civilian life. Troops to Energy Jobs, an initiative by 
CEWD in partnership with EEI and six pilot utility companies, including 
PG&E, helps connect our veterans to rewarding careers in the energy 
sector. The pilot program began in 2010 under the visionary leadership 
of Dominion Chairman, President and CEO Thomas F. Farrell II, who was 
then chairman of EEI. As one of the pilot companies of Troops to Energy 
Jobs, PG&E is extremely proud of how the program has progressed and 
helped to establish a needed and natural employment pipeline between 
the military and the nation's energy sector.
    The nation's electric and natural gas utilities have long been 
leaders in hiring military veterans. In fact, 11 of the 100 companies 
honored as top military friendly employers by GI Jobs Magazine are 
utilities, including PG&E.
    While the utility industry has an enviable track record in military 
recruiting and has long been considered a military-friendly employer, 
previous efforts had been scattered and uncoordinated. The goal of the 
Troops for Energy Jobs pilot program was to develop an effective 
national model for connecting veterans to rewarding energy careers in a 
systematic, coordinated, best-practices manner available to all 
utilities to use.
    The return on investment is strong for companies since military 
veterans have the training and skills that directly correlate to the 
skills required for technical, engineering, and support positions in 
energy companies. Veterans are adept in critical assessment, problem 
solving, and thinking on their feet and outside of the box. They are a 
natural fit for the energy industry in important areas such as safety, 
leadership, and understanding the importance of following established 
processes and procedures.
    Energy companies need employees who are committed to serving 
customers and their communities. With their strong sense of pride, 
honor, duty, discipline, focus on safety, and leadership excellence, 
veterans fit the industry's culture and add significant value to 
companies' success. A strong workforce is critical to meeting our 
nation's future energy needs and for supporting economic growth. For 
example, over the next decade, the utility industry plans to invest 
nearly $2 trillion to enhance the resiliency and reliability of the 
nation's electric system, as well as integrate new clean energy 
technologies and comply with new environmental and reliability 
standards and regulations. This massive investment translates into the 
need for thousands of highly skilled workers and provides an 
opportunity for qualified candidates to secure long-term careers in the 
utility industry.
    In 2013, Troops to Energy Jobs moved from the pilot phase to the 
point where a National Template was developed and launched. This 
Template can be used by the entire industry for military outreach, 
education, recruiting, and retention. The National Template offers 
veterans a road map with step-by-step guidance on how to transfer their 
military training to new energy careers.
    Troops to Energy Jobs also includes a website, 
www.troopstoenergyjobs.org, that provides detailed information and 
resources to veterans who are considering a career with the electric 
and natural gas utility industry. The website includes an online 
roadmap, with step-by-step instruction on how to match their military 
skills to energy jobs, as well as information on how to continue their 
education to obtain required credentials or degrees. The real time job 
site also includes daily updates of job openings for CEWD members and 
access to a virtual career coach. Most recently, the website has been 
updated to include a registration section where veterans can register 
their job interest, military skills, and ultimate location once they 
leave the military. That information is matched with utility employers 
in each state to give veterans advance notice of jobs and 
opportunities.
    Once on the job, mentors with prior military experience and 
industry tenure help veterans transition into the company and continues 
to work with them throughout their careers. The National Template also 
allows companies to tailor their own Troops to Energy Jobs initiative 
to match individual company needs and goals and to ensure that veterans 
do not hit roadblocks as the on-board into the company.
    By recruiting and hiring veterans, energy companies create 
opportunities for talented individuals who otherwise may not have 
entered our industry. We are providing veterans a pathway, helping them 
to reach their full potential in a rewarding energy career.
    Troops to Energy Jobs has a promising future, as the program 
continues to provide dedicated, well-trained, and highly disciplined 
servicemen and servicewomen a pathway toward stable, well-paying jobs 
in the private sector that closely fit their military skills.

PG&E PowerPathway<SUP>TM</SUP> Program

    With more than 40 percent of PG&E's workforce eligible for 
retirement in the near future, our company created its veteran-hiring 
program called PowerPathway<SUP>TM</SUP>. This innovative program is 
building a skilled workforce to deliver the high quality of service our 
customers expect. By partnering with educational and workforce 
investment systems, labor, and industry employers, PG&E is cultivating 
and preparing veterans for high-demand positions at our company and 
throughout the electric utility industry.
    Over the course of the program's five years, more than 250 veterans 
have graduated from PowerPathway<SUP>TM</SUP>, with 100 graduates in 
2013 alone. Since 2010, veterans have comprised seven percent of PG&E's 
hires.
    One such veteran who benefitted from the PowerPathwayTM program is 
Erick Varela. Mr. Varela served as a non-commissioned Army officer in 
Iraq, but when he returned home in 2008 he struggled to find a steady 
job, which left him and his family homeless for about a year. Mr. 
Varela's life took a turn for the better when he learned about PG&E's 
PowerPathway<SUP>TM</SUP> program.
    Mr. Varela applied to the program, was accepted, and, upon 
graduation, was hired as an apprentice electrician. In January, he had 
the honor of introducing President Obama at a White House event on 
long-term unemployment, where he also spoke about his experiences and 
the industry's efforts to connect military veterans to rewarding energy 
careers. Mr. Varela's journey is a testament to the results that can be 
achieved as a result of the industry's workforce development and 
veteran-hiring initiatives.
    PowerPathwayTM creates programs and partnerships to train and 
produce skilled and diverse workers needed by PG&E and the energy 
industry. The program also enlarges the talent pool of qualified, 
diverse candidates for skilled craft and utility industry jobs through 
training partnership programs with educational, community-based, and 
government organizations.
    Recognized by the National Commission on Energy Policy as a best 
practice program, by Clean Edge's Clean Tech Job Trends as an 
organization to watch, and through a partnership with the White House 
and Skills for America's Future Initiative, PG&E's 
PowerPathway<SUP>TM</SUP> program is a distinguished leader in 
workforce development.

Additional Veteran Workforce Initiatives

    Continuing its commitment to veterans, PG&E also established a 
Veterans Employee Resource Group (ERG) in 2011. The ERG's goal is to 
educate, support and develop PG&E employees with military experience. 
In two years, more than 700 employees have joined the group, which is 
open to all employees, regardless of veteran status. The use of 
employee resource groups is an example of one of the best practices 
documented in the Troops to Energy Jobs initiative.
    PG&E also is proud of its involvement in the Nuclear Uniform 
Curriculum Program, an industry initiative that established a 
partnership with 38 community colleges to educate the next generation 
of nuclear workers to a high and consistent standard.
    In August 2012, the civilian nuclear energy industry and the U.S. 
Naval Nuclear Propulsion Program signed the first formal agreement 
between the two parties, which aims to bring personnel leaving the Navy 
to work in the nuclear field. More than 30 companies have signed the 
contract, which gives nuclear-trained naval employees the opportunity 
to have their contact information provided to industry recruiters. With 
this agreement, the Navy has the ability to recruit program graduates 
to serve as nuclear-trained sailors.
    Because of PG&E's efforts to recruit, train, and hire veterans, our 
company has been designated as a 2014 Top-100 Military Friendly 
Employer by Victory Media, publisher of G.I. Jobs Magazine. This is 
the second consecutive year, and the third time overall, that the 
utility has been recognized by the publication. PG&E was one of more 
than 5,000 companies that competed for the honor.

Conclusion

    Over the next several years, the electric and natural gas 
industries will need to hire hundreds of thousands of workers. We 
recognize there is a strong correlation between the skill sets the 
power sector needs and those that veterans possess. PG&E and the 
electric power industry are committed to training veterans for energy 
industry careers through programs such as Troops to Energy Jobs, 
PowerPathway<SUP>TM</SUP> and other initiatives. We appreciate the 
opportunity to testify about these programs to the Subcommittee.

                        Statement for the Record

    Dr. William Doe, Chief Executive Officer, Veterans Green Jobs

Introduction

    Chairman Bill Flores, Ranking Member Mark Takano and Distinguished 
Members of the House Subcommittee on Economic Opportunity:
    Thank you for the opportunity to provide you with a written 
statement on behalf of my organization, Veterans Green Jobs, on the 
important topic of ``Exploring Jobs for Veterans in the Energy 
Sector''. I am a retired career Army officer and a graduate of West 
Point and serve as the Chief Executive Officer of Veterans Green Jobs, 
a 501(c) 3 non-profit corporation, located in Denver, Colorado. Over 
the past decade, I have been actively involved with employment and 
educational issues for our military veterans, particularly those in the 
post-9/11 combat era, in higher education at Colorado State University 
and in the non-profit sector.

Veterans Green Jobs Organization

    Veterans Green Jobs was founded in 2008. Our mission is to engage, 
transition, and connect military veterans with meaningful employment 
opportunities that serve our communities and environment. We work to 
inspire hope and confidence in our veterans for a positive future for 
themselves, their families and their communities. Our vision is to 
empower veterans to utilize their military service to become leaders in 
a new mission that helps our nation achieve energy efficiency, energy 
independence and security, natural resources conservation and the 
resulting environmental, social and economic benefits. We have focused 
our efforts on programs that offer veterans concrete skill building and 
job placement in a variety of green careers. We view unemployment as a 
risk multiplier for all other obstacles a veteran faces. The lack of a 
stable career, which provides a veteran with a sense of purpose, 
compounds problems with health care, personal relationships, and other 
issues, and acts as a road block to successful reintegration into our 
communities.

Veterans Green Jobs Programs in Residential Energy Efficiency

    Our efforts over the past five years have been to assist 
transitioning veterans with securing meaningful employment in the green 
sectors of our economy, include residential energy efficiency and 
renewable energy, the latter with an emphasis on the solar industry. We 
have also been successful in placing hundreds of veterans into outdoor 
conservation and wild land firefighting positions through partnerships 
with regional and state-level Conservation Corps and federal land 
management agencies. Within the energy sector, Veterans Green Jobs has 
undertaken two major programmatic efforts: (1) Employing veterans to 
perform residential energy efficiency services in weatherization for 
local communities, and (2) providing networking and job placement 
services for interested veterans with businesses and corporations in 
the renewable energy industry.
    For the past five years, through contracts with the Colorado Energy 
Office, and under the Department of Energy's Weatherization Assistance 
Program (WAP), we have served the citizens of two metropolitan counties 
in Colorado with low-income, residential weatherization services. Our 
own full-time workforce, which has varied in size from 100 to 40 full-
time employees over the past five years, has included a 30% veteran 
component, including veterans from all eras. In our current workforce 
of forty full-time employees, we employ six veterans in positions as 
weatherization technicians, three veterans as furnace technicians, and 
four veterans in management and support positions. Our veterans 
represent all branches of the Armed Forces and numerous military 
occupational specialties, both technical and combat arms. On-the-job 
training is provided and certifications in building science and 
performance must be achieved in the first year. Furnace technicians 
require more specialized certifications and licensing.
    One of our current veteran weatherization technicians, Matt 
Rynders, a former Army combat veteran of Operation Iraqi Freedom, 
served as a Black Hawk helicopter door gunner, and was featured in a 
cover story in the Denver Business Journal (When the tour of duty ends, 
DBJ, November 8-13, 2013). Matt is typical of many of our veterans who 
want a steady-job with a purpose. Matt has developed a greater 
awareness about energy and energy use in recent years--and enjoys 
spreading his enthusiasm. He remembers 95-degree summer days 15 years 
ago and now considers 105 degrees the norm. ``I see the planet 
changing. If we can get more people interested in doing things like 
increasing our efficiencies and getting educated, we can change. It's 
one more brick on the foundation of creating a green environment.'' 
Before coming to Veterans Green Jobs, Matt looked for ways to apply his 
sensibilities about the environment in his line of work and study. He 
considered working in the wind energy industry, and studied it for a 
while, but decided to focus his time on working at Veterans Green Jobs 
weatherizing homes, where he continues to learn and explore new ways of 
becoming more energy efficient--not only for the benefit of clients, 
but for himself as well. ``I never thought about why I should insulate 
walls and attics, or how building science works--like how buildings 
breathe and whether they are vented properly,'' he says, adding that 
many homeowners likely don't think about these things, either, but now 
they will.
    The energy efficiency sector, both residential and commercial, 
presents a variety of job and career opportunities for veterans, 
combining their technical, communication and social skills. In addition 
to entry level technical positions, more advanced jobs as building 
energy raters and energy auditors are available. Generally, these jobs 
will require veterans to achieve industry certifications through 
community or for-profit colleges and other training institutions.

Growing Interest of Veterans in the Renewable Energy Sector

    Our veterans, who have served our nation in both peace and war, 
understand the importance of sustaining our economy, environment and 
society through energy efficiency practices and the growth of clean and 
renewable energy. Whether it be through education or training, we have 
found that veterans are seeking opportunities that are more than just a 
good-paying job, but that will allow them to continue to serve their 
communities, use their technical, teamwork and cultural skills, and 
make a difference in the future of the nation--addressing urgent 
national and local issues such as energy security, environmental 
stewardship and community development.
    They highly value the natural resources and natural environment 
that help define our way of life. They have seen first-hand, in 
deployments abroad, how the degradation of environmental quality 
impacts society. They also understand the operational advantages of 
using alternative energy in combat theaters, and have witnessed the 
significant investments being made by the Department of Defense to 
develop renewables for energy use on military installations and in 
other operational contexts. Thus, there is a strong connection between 
their military experiences with energy use and the applications that 
transfer to the job market and civilian sector.
    Interest amongst veterans for employment in the renewable energy 
sector is growing. This interest is evidenced in a recent report 
(February 2014) entitled Veterans in Solar: Securing America's Future, 
co-published by the Solar Foundation and Operation Free, a clean energy 
campaign of the Truman National Security Project and Center for 
National Policy, both located in Washington, D.C. The report, cited in 
an article published on GreenBiz (http://www.greenbiz.com, 2014-04-08), 
entitled ``Why are so many veterans serving in the solar industry,?'' 
reports the growing number of veterans being employed in the solar 
industry. Veterans compose 9.2 percent of the 143,000-member workforce, 
compared to 7.6 percent of the workforce nation-wide. Additionally, as 
cited in both of these references, veterans are taking a leadership 
role in the industry serving in key management, business and financial 
positions as the industry grows. Non-profit organizations in solar, 
such as GRID Alternatives and Solar Energy International, both with 
offices in Colorado, have partnered with Veterans Green Jobs to promote 
solar installation training opportunities for veterans. Finally, a 
number of two-year technical schools have emerged to provide education 
and training in the renewable energy sector, attracting significant 
enrollments from student-veterans. For example, one of our educational 
partners, Ecotech Institute in Denver, a for-profit institution 
providing 2-year technical programs in renewable energy, has seen its 
student-veteran population increase to 28% of enrolled students in only 
three years, and anticipates further growth in its student-veteran 
population.
    Success in placing veterans in energy jobs requires partnerships 
with a variety of organizations. At Veterans Green Jobs we have 
partnered, in both the veterans and energy space, with numerous 
government agencies, corporations, non-profit organizations, and 
institutions of higher learning, to promote job opportunities for 
veterans in the energy efficiency and renewable energy sectors. In 
Colorado, for example, we have worked closely with the Colorado 
Employer Support for Guard and Reserve (ESGR), a Department of Defense 
organization, to both employ Guard and Reserve members, as well as 
participate in their Military and Veterans Employment Expo, held 
annually in Colorado Springs--a city with several large military 
installations. These highly successful employment events, attended by 
over 1,000 military and veteran members, provide both training for 
veterans on how to transition and prepare themselves for the job 
market, in concert with a traditional job fair with companies committed 
to hiring veterans. All of our programs represent ``boots on the 
ground'' for putting veterans back to work.
Actions Necessary to Encourage and Place Veterans in the Energy Sector

    Despite the positive trends in jobs for veterans in the energy 
efficiency/renewable energy sectors, there are several actions that 
should be taken to further develop these opportunities and ensure 
growth of jobs in the energy efficiency and renewable energy industries 
for veterans:
    1. Energy corporations must take the lead in formally stating their 
commitment to hire veterans. Large corporations committed to energy 
services and renewable energy, such as General Electric, Siemens and 
Xcel Energy, have been strong advocates for veteran friendly hiring 
commitments and practices. For example, Xcel Energy recently (May 14, 
2014 in Denver, CO) held a major event with the ESGR to sign a 
Statement of Support pledge in support of National Guard and Reservist 
employees and to promote the hiring of Guard/Reserve members and 
veterans. However, many other companies in these industries have lagged 
behind in making commitments and investments in veterans, not only to 
hire them, but to ensure a supportive institutional culture once they 
are on board. Best practices from these leaders in the industry should 
be identified and distributed widely.
    2. Outreach to veterans from the energy industry is essential as 
they transition from the military. Corporations and businesses in the 
energy efficiency and renewable energy sectors must more fully engage 
the non-profit sector and the higher education sector through 
partnerships and philanthropic support to promote veterans outreach, 
job and career counseling and placement opportunities for veterans in 
these industries. In addition to government employment programs for 
veterans, non-profits and educational institutions engage large numbers 
of transitioning service members and can provide networking and career 
guidance for individual veterans into these industries. Transitioning 
veterans are often unaware of the growing opportunities in these 
sectors.
    3. Government contracting procedures for energy efficiency and 
renewable energy services, at both the State and Federal levels, must 
strongly consider the veterans workforce in making decisions about 
contract awards in energy efficiency and renewable energy services 
contracts. Large investments in renewable energy are being made by the 
Department of Defense on military installations. For example, the 
Army's Energy Initiatives Task Force (EITF) has announced a $7B, 30-
year Multiple Award Task Order Contract (MATOC) to install and operate 
large renewable/alternative energy projects on military installations. 
One hundred renewable energy companies have been pre-qualified to 
compete for these contracts. Energy companies with a demonstrated 
commitment to a veterans' workforce should be given additional 
consideration for these contract awards on military installations. 
Similarly, other government contracts, such as those in residential 
energy efficiency for low-income communities, should give preference to 
organizations who have established successful veterans' hiring 
programs.
    In executing our programs over the past six years we have learned a 
great deal about the employment challenges facing veterans. There are 
numerous organizations and public offices in the space of veterans' 
employment. In our experiences, the programs with the greatest 
successes in employing veterans have incorporated the following 
elements:

        <bullet> Full spectrum employment assistance with defined 
        linkages from training and education to direct job placement
        <bullet> A sense of service and organizational culture that 
        transforms their military service into other forms of national 
        and community service
        <bullet> A living wage or stipend for internships or training 
        that allows veterans to support themselves and their families 
        with some income while earning certifications and training to 
        prepare them for civilian employment
        <bullet> Well communicated employment/job resources that are 
        easy to locate and access
        <bullet> Personal guidance and mentorship that helps individual 
        veterans find training and careers based on their experience 
        and interests

Conclusion

    Chairman Flores, Veterans Green Jobs is a nonprofit corporation 
serving the employment needs and interests of veterans in the growing 
energy efficiency and renewable energy sectors. We are fully aware of 
the challenges facing our veterans as they exit military service and 
return to our communities. Our Board of Directors and non-profit staff 
are composed of professionals, both veteran and non-veteran, who 
strongly believe the energy sector provides tremendous job 
opportunities for our veterans. We believe that public-private-
nonprofit partnerships are essential to fulfilling these opportunities. 
This concludes my written statement.

Statement of Disclosure

    Veterans Green Jobs, a 501(c) 3 organization, received the 
following contract awards through the Colorado Energy Office (CEO) in 
FY12-13 and FY13-14. Funds were appropriated for this grant from the 
U.S. Department of Energy (DOE) under the Weatherization Assistance 
Program (WAP) for Low-Income Persons, CFR Part 440, and the U.S. 
Department of Health and Human Services Low Income Home Energy 
Assistance Program. Veterans Green Jobs was a sub-grantee for this 
program in Region 9 of Colorado, serving Denver and Jefferson Counties. 
The following contracts were awarded: FY12-13: $2,389,559; FY13-14: 
$3,344,221.

Curriculum Vitae

    Dr. William (Bill) Doe is currently the Chief Executive Officer of 
Veterans Green Jobs, a 501(c) 3 non-profit corporation, located in 
Denver, Colorado. Dr. Doe is a career Army veteran having served on 
active duty in the Army Corps of Engineers for 22 years and retiring as 
a Lieutenant Colonel. He was commissioned from the U.S. Military 
Academy at West Point and served on the faculty there as an Academy 
Professor of Geography and Environment. He holds graduate degrees in 
Civil Engineering from the University of New Hampshire (M.S.) and 
Colorado State University (Ph.D.). Upon completion of his active duty 
service, Dr. Doe was a senior environmental researcher, associate 
professor and administrator at Colorado State University where he 
directed environmental management contracts, services and applied 
research on military installations in the U.S. and Germany. His areas 
of expertise include military lands management, environmental and 
watershed management, renewable energy and the study of warfare ecology 
and military geography. He has authored numerous book chapters and 
articles on these subjects, and teaches both resident and on-line 
courses in sustainability for several institutions of higher learning. 
He is active in veterans and student-veterans affairs in Colorado.

                                 <all>
</pre></body></html>
